<html>
<title> - UPDATE ON TOYOTA AND NHTSA'S RESPONSE TO THE PROBLEM OF SUDDEN UNINTENDED ACCELERATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
    UPDATE ON TOYOTA AND NHTSA'S RESPONSE TO THE PROBLEM OF SUDDEN 
                        UNINTENDED ACCELERATION

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

                           Serial No. 111-126


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
76-581                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f7e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
BRUCE L. BRALEY, Iowa                GREG WALDEN, Oregon
  Vice Chairman                        Ranking Member
EDWARD J. MARKEY, Massachusetts      ED WHITFIELD, Kentucky
DIANA DeGETTE, Colorado              MIKE FERGUSON, New Jersey
MIKE DOYLE, Pennsylvania             TIM MURPHY, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas
DONNA M. CHRISTENSEN, Virgin 
    Islands
PETER WELCH, Vermont
GENE GREEN, Texas
BETTY SUTTON, Ohio
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     4
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    12
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    14
    Prepared statement...........................................    16
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    20
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    21
Hon. Parker Griffith, a Representative in Congress from the State 
  of Alabama, opening statement..................................    21
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, opening statement.....................................    22
    Prepared statement...........................................    24
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................    27
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    28
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    28

                               Witnesses

David L. Strickland, Administrator, National Highway Traffic 
  Safety Administration..........................................    29
    Prepared statement...........................................    32
James E. Lentz, President and Chief Operating Officer, Toyota 
  Motor Sales, U.S.A., Inc.......................................    52
    Prepared statement...........................................    55

                           Submitted Material

Letter of February 22, 2010, from the Committee to the United 
  States Department of Transportation, submitted by Mr. Stupak...    74


    UPDATE ON TOYOTA AND NHTSA'S RESPONSE TO THE PROBLEM OF SUDDEN 
                        UNINTENDED ACCELERATION

                              ----------                              


                         THURSDAY, MAY 20, 2010

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Bart 
Stupak [Chairman of the Subcommittee] presiding.
    Present: Representatives Stupak, Braley, Schakowsky, 
Christensen, Dingell (ex officio), Waxman (ex officio), 
Burgess, Blackburn, Gingrey, Griffith, Latta, and Barton.
    Also present: Representative Gonzalez.
    Staff present: Phil Barnett, Staff Director; Bruce Wolpe, 
Senior Advisor; Dave Leviss, Chief Oversight Counsel; Allison 
Cassady, Professional Staff Member; Molly Gaston, Counsel; Anne 
Tindall, Counsel; Scott Schloegel, Investigator; Ali Neubauer, 
Special Assistant; Karen Lightfoot, Communications Director, 
Senior Policy Advisor; Elizabeth Letter, Special Assistant; 
Lindsey Vidal, Special Assistant; Earley Green, Chief Clerk; 
Mitchell Smiley, Special Assistant; Melissa Bartlett, Minority 
Counsel, Health; Karen Christian, Minority Counsel, Oversight; 
Kevin Kohl, Minority Professional Staff Member; Alan Slobodin, 
Minority Chief Counsel, Oversight.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. This meeting will come to order. Today we have 
a hearing titled Update on Toyota and NHTSA's Response to the 
Problem of Sudden Unintended Acceleration. The chairman, 
ranking member, and the chairman emeritus will now be 
recognized for 5-minute opening statement. Other members of the 
subcommittee will be recognized for a 3-minute opening 
statement. I will begin. Today's hearing will serve as a 
progress report on where Toyota and the National Highway 
Traffic Safety Administration, NHTSA, are in terms of 
diagnosing and correcting sudden unintended acceleration. We 
will also examine what Toyota has done since our February 23 
hearing. During our February 23 hearing, we heard from Toyota 
Motor Sales President Jim Lentz, Department of Transportation 
Secretary, Secretary Ray LaHood, consumer advocate Sean Kane, 
and from an expert witness, Professor David Gilbert of Southern 
Illinois University about sudden, unintended accelerations, 
SUA, in Toyota vehicles.
    We also heard from Rhonda and Eddie Smith about their 
experience with sudden unintended acceleration in their Lexus. 
Committee members asked many questions but we were left with 
more questions than answers. Toyota engaged in damage control 
almost immediately following our hearing by continuing 
asserting confidence that the extensive testing proves the 
safety of the electronics systems and attacking those 
individuals who disagreed with them. But as Chairman Waxman 
noted in his opening, the record doesn't support Toyota's 
statements that it conducted extensive testing. The truth is 
that we don't know whether electronics plays a role in sudden 
unintended acceleration and Toyota doesn't know either. What is 
disappointing to me is learning that Toyota seems to have 
focused more on discrediting its critics than on resolving the 
problem.
    When Dr. Gilbert testified before this subcommittee in 
February, he explained that he found a way to induce sudden, 
unintended acceleration in a Toyota vehicle without triggering 
an error code in the vehicle's computer. Committee staff has 
spoken with several academics who describe Dr. Gilbert's 
experiment as sensible and as a reasonable way to begin to 
study unintended acceleration. Dr. Christian Gerdes, a 
professor at Stanford University who Toyota asked to review Dr. 
Gilbert's work, told the committee that Dr. Gilbert's approach 
was a legitimate starting point for a more in-depth inquiry 
into the causes of sudden unintended acceleration.
    Unfortunately, Toyota appears to have been more interested 
in messaging then scientific inquiry. After the hearing, Toyota 
hired a public relations firm to advise the company on its 
public response to lawsuits claiming that electronics plays a 
role in sudden unintended acceleration. We know from the 
committee's investigation that the PR firm, Benenson Strategy 
Group, or BSG, conducted a poll to learn more about what Toyota 
could do to repair damage to the company's image among educated 
consumers known as opinion elites. A presentation by Benenson's 
Strategy Group shows that, among the key findings from the 
poll, Toyota learned the following.
    Debunking Kane/Gilbert's testimony will be critical for 
restoring confidence among elites and reassuring audiences that 
electronic throttle control is in fact not an issue. That is a 
document of March 5. We reviewed an updated BSG document 
showing the results from another Toyota poll to test some 
aggressive messages for possible use in future public 
statements or advertising. This poll referred to Dr. Gilbert's 
experiments as phony, shoddy science, a hoax, and a parlor 
trick that would never happen in real life. We have a document 
on that.
    BSG summarized the results from this new poll in a 
presentation, dated March 8, 2010, suggesting that Toyota 
should try to damage Dr. Gilbert's credibility by accusing him 
of having ``monetary or self interested motives.'' Toyota told 
the committee that the company did not follow its pollster's 
suggestion to attack Dr. Gilbert, but the documents suggest 
otherwise. On March 8, a Monday, Toyota held a press conference 
and released a report by Exponent criticizing Dr. Gilbert's 
work. Two days before the press conference, the vice president 
of Toyota's public relations firm noted in an email to a 
colleague the importance of finishing the poll before this 
event, saying, I am quoting now, ``We really, really need to 
get this done, especially with elites. Toyota has a press 
conference on Monday and need our data to know what to say.'' 
That is the document we have right here.
    At that press conference, before Exponent presented its 
findings, Toyota spokesman Mike Michels disparaged Dr. 
Gilbert's work and said it was ``paid for by an advocate for 
trial lawyers.'' The Exponent report on Dr. Gilbert's research 
was a hit job, not solid science. Exponent confirmed the key 
conclusions that Dr. Gilbert had drawn in his report, but then 
disparaged Dr. Gilbert for not testing the likelihood of the 
faults he identified even though Exponent never did this 
analysis either. Exponent added new steps to Dr. Gilbert's 
experiment and mischaracterized others, all in an attempt to 
make his outcome seem unlikely and to invent flaws in his 
analysis, but independent experts have defended Dr. Gilbert's 
approach, including a Stanford University professor who 
reviewed the report at Toyota's request and described Dr. 
Gilbert's experiment as a perfectly reasonable starting point.
    When I look at Toyota's approach, I do not understand why 
the company is attacking Dr. Gilbert for trying to find a root 
cause of sudden unintended acceleration. Toyota ought to be 
undertaking a comprehensive review and encouraging automotive 
experts to come forward with ideas of what could be causing the 
problem. Based on the committee's review of Exponent's work for 
Toyota in this regard, we remain concerned that this is not 
occurring. The committee asked Toyota and Exponent to produce 
all reports, analyses or communications describing the result 
of Exponent's work for Toyota related to unintended 
acceleration or electronic throttle control. We also asked for 
all contracts, agreements, memoranda or correspondence 
concerning the scope of Exponent's work for Toyota.
    From these responses, we have learned that only direction 
for additional studies reside in the minds of Exponent 
employees. It appears that Exponent's only public written work 
to date is the incomplete, interim study and report attacking 
Dr. Gilbert's credibility. I find this extremely troubling 
given the fact that Toyota and Exponent have both informed the 
committee they are taking a comprehensive look at the issue of 
sudden unintended acceleration in Toyota and Lexus vehicles.
    To be fair, Toyota has made progress on processing their 
recalls. They have completed 80 percent of the sticky pedal 
recalls, and they have completed 30 percent of their floor mat 
recalls. They have also made some management changes that we 
hope will lead to improved safety culture. One of the most 
significant improvements that Toyota could make would be to 
install brake override technology in all of their vehicles. 
Brake override technology ensures that if both the accelerator 
and the brake are pressed at the same time the brake will 
override the accelerator. Toyota told the committee that 
beginning in 2011 all vehicles will have this feature, but the 
company is being more selective about which older models will 
receive the software upgrade.
    Despite the fact that installing brake override technology 
on older vehicles would only cost $50 per vehicle, Toyota does 
not plan to offer this option even at the owner's expense to 
owners of certain models. I look forward to hearing why Toyota 
won't offer brake override to their customers with older 
vehicles even if the customer pays for it. Since our February 
hearing NHTSA and Toyota appear to have improved their working 
relationship. NHTSA officials tell us that Toyota has shown 
more willingness to address issues of concern. NHTSA has 
informed us it has commissioned 2 studies to examine unintended 
acceleration in vehicles. The first is a study to be conducted 
by NASA scientists who examined Toyota's electronic throttle 
control systems for possible problems associated with their 
hardware and/or software. This report is targeted to be 
completed by the end of August.
    The second study will be conducted by a panel of 
independent scientists selected by the National Academy of 
Sciences. The NAS study will offer a comprehensive examination 
of unintended acceleration and electronic control systems 
across all automobile manufacturers. This study should be 
completed by fall of 2011. I would like to thank both Mr. 
Strickland and Mr. Lentz for their testimony today and for 
their ongoing cooperation with the committee's investigation. 
Mr. Lentz, we appreciate Toyota and its outside counsel, Ted 
Hester, for the company's responsiveness to our several 
requests for documents and for substantive briefings.
    I wish I could say we received the same level of 
cooperation from Toyota's consultant, Exponent. Unfortunately, 
Exponent has withheld responsive documents and information from 
the committee, and has even modified responsive documents 
before producing them to us, in direct violation of the 
committee's instructions. It is ironic that the firm Toyota has 
hired to conduct an independent investigation has behaved like 
it has something to hide from this committee. I will next turn 
to Mr. Burgess for an opening statement, please.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Chairman Stupak, and, as always, 
thank you and Chairman Waxman for convening this important 
hearing, and welcome to our witnesses who are here with us 
today. Our first hearing on the Toyota problems was almost 3 
months ago to the day. At that time we had a lot of questions 
but not a lot of answers as to what was causing the sudden 
unintended acceleration events in Toyotas. So today we are here 
for answers but it also appears that we will not be getting 
those. I was hoping this hearing was called because there was 
some new information that was coming to the fore, but, in fact, 
we may be having this hearing because we found out that Toyota 
did a poll.
    Now, Mr. Chairman, if polling is found to be at the level 
of a high crime or misdemeanor this dais would be suddenly and 
irrevocably silent because we would all go away. We are not 
going to get those answers today. I am concerned that we 
continue to have hearings where we literally go in circles 
because this is an important issue that needs to be resolved. 
It needs to be resolved for the safety of Toyota's customers, 
and it needs to be resolved for the future of auto sales by 
that manufacturer. This hearing does seem premature. Toyota has 
commissioned Exponent, an engineering and scientific firm, to 
do a top to bottom review of its cars to figure out cause of 
these events.
    The National Highway Traffic Safety Administration has 
asked for NASA's failure analysis experts to take a look at 
Toyota's electronics. As of today, both of those studies are 
ongoing. That is a good thing. We just don't have answers yet. 
According to Exponent, they haven't found the answer to what is 
causing these events and NASA's work is just getting started. 
In fact, at the hearing previous, Ranking Member Barton asked 
the National Highway Traffic Safety Administration to not just 
find the car that was in question that day, the car of Rhonda 
and Eddie Smith, but find it and tear it apart to find out what 
the problem was. Now NHTSA has found the Smith's car and has 
had it for almost 3 months. According to NHTSA's e-mails to the 
minority staff, engineers have run some tests on the car and do 
plan to do more, but here is what they found to date. And let 
me quote, so there will be no question about it. ``Nothing 
remarkable.''
    Mr. Chairman, I would ask that these e-mails from NHTSA and 
the minority staff be included in the record. Apparently, the 
Smiths' car was delivered on February 26, and that is the time 
that it has been under study. Three months later, we don't have 
an answer to what went wrong with the Smiths' car, never mind 
answers to all of the other Toyotas that have experienced 
events that are so far inexplicable. And that is not really 
surprising because these are after all very complicated 
problems that potentially involve electronics, software, and 
mechanical issues. Finding the right answer is going to take 
time but the important part is finding the right answer and not 
rushing to an answer because otherwise it will be impossible to 
identify the right solution.
    If you don't find the right solution, the cars are not safe 
and the public is not protected, and Toyota's reputation 
continues to suffer. As this subcommittee is an investigative 
body, we should be careful not to draw conclusions about the 
nature of the comprehensiveness of these investigations while 
they are ongoing. Both NASA and Exponent have laid out a number 
of areas to examine including software, hardware, systems 
interaction and magnetic interference. My understanding is that 
NASA and Exponent are looking at many of the same issues. Mr. 
Chairman, that is called independent verification. That is 
actually part of the scientific method, and it is a good thing.
    I do want to impress upon the National Highway Traffic 
Safety Administration and on Exponent that our patience in this 
committee is not endless when it comes to getting answers. 
Exponent has recently provided the committee with a working 
graph of their work. I will accept that this graph is 
incomplete that the information in it has not been thoroughly 
tested and that Exponent has not identified the causes of these 
events. That is fine. But when it comes to the scope of 
Exponent's work, we have seen test results and raw data but no 
paper that sets out their plans for testing Toyotas. 
Essentially, we have been told to take their word for it as to 
what exactly they are doing.
    Exponent is not here today to speak for itself. Since our 
last meeting, we have met with one of the Exponent engineers 
working on the Toyota case. Perhaps we still don't have a full 
picture of their work. Mr. Lentz, what I hope to hear from you 
today is what Toyota's strategy is going forward for solving 
this problem and that Toyota is committed to working and 
sharing with this committee and the public whatever Exponent 
finds when it finds it. I would also like to welcome 
Administrator Strickland from NHTSA. NHTSA has opened a number 
of different inquiries into Toyota's responsiveness when it 
comes to recall and safety concerns. The National Highway 
Traffic Safety Administration has also penalized Toyota over 
$16 million with respect to the timeliness of Toyota's recall, 
which Toyota paid yesterday without admitting fault to the 
underlying charges.
    Mr. Strickland, I know you recently traveled to Japan with 
Secretary LaHood to meet with Toyota. Before that meeting 
Secretary LaHood said Toyota was safety deaf. After that 
meeting, Secretary LaHood said Toyota is now listening and 
paying attention to NHTSA's warnings, and that is quite a 
turnaround in one meeting's time. Mr. Strickland, I would like 
to know if you agree with the Secretary's assessment and why 
you are confident that now today Toyota has gotten the message 
that before seemed to have some difficulty getting through.
    I would also like to learn from Administrator Strickland 
how Toyota's working relationship with NHTSA has improved since 
our last hearing. Based on Secretary LaHood's testimony at our 
last hearing and on your testimony before the Commerce, Trade, 
and Consumer Protection Subcommittee in March, I believe it is 
NHTSA's view that it had the necessary authorities and data to 
do the proper oversight of Toyota. If that is true, was the 
only problem Toyota? Are you still confident today that NHTSA's 
investigations weren't as thorough as they should have been and 
that NHTSA had the necessary skills and expertise to perform 
same. Is NHTSA doing a systemic review of other recalls to 
assure itself that other manufacturers are being responsive?
    On that note, Mr. Lentz, I do want to make sure recent 
improvements that Toyota has announced like smart team 
inspections of cars and quality panels are not a matter of form 
over substance. I hope you can offer us some specifics about 
how this has improved Toyota's responsiveness to its drivers, 
to our constituents and to NHTSA. Mr. Chairman, you have been 
indulgent. I will yield back the balance of my time.
    [The prepared statement of Mr. Burgess follows:]

    [GRAPHIC] [TIFF OMITTED] T6581A.001
    
    [GRAPHIC] [TIFF OMITTED] T6581A.002
    
    [GRAPHIC] [TIFF OMITTED] T6581A.003
    
    [GRAPHIC] [TIFF OMITTED] T6581A.004
    
    [GRAPHIC] [TIFF OMITTED] T6581A.005
    
    Mr. Stupak. Chairman Waxman, for opening statement, please, 
sir.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Chairman Stupak, I want to thank you for 
holding today's hearing on sudden unintended acceleration in 
Toyota-made cars and trucks. This is our second hearing on the 
subject since Toyota had already recalled millions of vehicles 
due to consumer complaints about sudden unintended acceleration 
in their vehicles. A key question that was raised at our first 
hearing was whether the thousands of complaints of these 
vehicles reported by consumers for sudden acceleration could be 
linked to electronic defects in the vehicles, and that is still 
the subject of our hearing today. In February, we had our 
hearing on this and I asked Toyota Motor Sales President James 
Lentz whether he was certain that the recalls Toyota had 
ordered, which involving replacing floor mats and sticky 
accelerator pedals, would solve the problem of Toyota cars 
racing out of control. He replied not totally.
    This appears to have been a rare moment of corporate candor 
because the very next day, Toyota Motor Sales issued a press 
release entitled Clarification of Testimony Regarding 
Effectiveness of Recalls, in which the company reiterated that 
extensive testing made it confident that no problems exist with 
the electronic throttle control systems in its vehicles. The 
same day, before a different House committee, the President of 
Toyota Motor Company, Akio Toyoda, testified he is absolutely 
confident there is no problem with the design of Toyota's 
electronic throttle control system because very rigorous 
testing identified no problem or malfunction. A few days later, 
Toyota ran a full page advertisement, among others, in the 
Washington Post declaring that floor mat and sticky pedal 
recall solutions are effective and durable, and that Toyota is 
confident that no problems exist with the electronic throttle 
control system.
    Well, these assurances are baffling. In preparation for our 
last hearing, we had received over 100,000 pages of documents 
from Toyota and the National Highway Traffic Safety 
Administration. What was most notable about those documents was 
what was missing. There was no evidence that Toyota or NHTSA 
took a serious look at the possibility that electronic defects 
could be causing the problems. In the months since that 
hearing, the committee has investigated the basis for Toyota's 
repeated assertion. We asked Toyota to bring from Japan the 
engineers most familiar with the testing of the throttle 
system, and we did a lengthy transcribed interview with these 
officials. We took a transcribed interview with the person most 
knowledgeable of the testing Toyota is doing in the United 
States, and this is through a firm called Exponent, and we 
reviewed many more documents.
    What we have learned is deeply troubling. There is no 
evidence that Toyota has conducted extensive or rigorous 
testing of its vehicles for potential electronic defects that 
could cause sudden unintended acceleration. Our colleague, Mr. 
Burgess, said there is a top to bottom review. We shouldn't 
jump to conclusions. Well, Toyota has already jumped to the 
conclusion and made it over and over again that they have ruled 
out any problem with the electronics. We asked Toyota for the 
basis of this assertion that vehicles do not have electronic 
defects, and they pointed to 2 primary justifications. One is 
the testing that was done in recent months by this consulting 
firm, Exponent. That is being done here in the United States.
    The other is the pre-market testing done over the years by 
its engineers in Japan, so we focused our attention on these 2 
areas. We looked at Exponent's work, which is claimed to have 
been comprehensive and independent but the documents reviewed 
by the committee don't support these assertions. On the screen, 
I hope we will see, a record that neither Toyota or Exponent 
produced to the committee that explained the relationship 
between the scope of Exponent's work. It is a contract. And it 
is a contract by Toyota and their consulting firm for 
engineering consulting services related to class actions filed 
against Toyota.
    Nowhere in this document do the lawyers ask Exponent to 
conduct a comprehensive examination of sudden unintended 
acceleration. In fact, the words sudden unintended acceleration 
do not even appear, so our committee interviewed Dr. Shukri 
Souri, the Exponent engineer who oversaw the work, and what we 
learned from him was astonishing. Exponent has no written work 
for this project, no written time line, no written 
specifications for the experiments it has run or plans to run. 
They have no written list of the potential causes of sudden 
unintended acceleration that it plans to study. And though he 
is personally responsible for the hardware, software, and 
electronic interference testing that Exponent has done or will 
do for Toyota, Dr. Souri has no written notes on Exponent's 
work.
    We asked him to explain this. How could there be this 
remarkable lack of documentation? And he explained that writing 
down what Exponent does would limit the creativity of the 
engineers working on the project. That is preposterous. A 
former Exponent engineer told the committee staff that the 
reason they didn't write anything down is to avoid creating 
documents that might have to be produced in a lawsuit. Toyota's 
lawyers appear to be involved in every aspect of Exponent's 
work. The lawyers have the right to approve the publication of 
Exponent's work. Dr. Souri reported to committee staff that all 
communications with Toyota have counsel present. The 2 reports 
Exponent has issued both state that they were prepared for 
Bowman & Brooke, the law firm, defending Toyota in litigation.
    Exponent has issued 2 public reports to date, and they are 
not a comprehensive examination of sudden unintended 
acceleration. The first was an interim report. It was requested 
by the lawyers for use at our February hearing. And Dr. Souri 
told our staff that this report was unusual because Exponent 
had not completed its work, and outside experts criticized this 
report because it had unclear methodology and an overly narrow 
focus. They have a second report. This was even narrower 
designed only to rebut the testimony provided by our expert 
witness at the committee's first hearing. It did not offer any 
discussion of Exponent's investigation of sudden unintended 
acceleration other than its replication of a laboratory 
experiment conducted by the committee's witness.
    Well, these reports do not even come close to supporting 
Toyota's contention that Exponent has thoroughly examined 
Toyota's electronic throttle control systems. Now the other 
basis for their assertions is that they did pre-market testing 
by their own engineers in Japan. We interviewed those engineers 
and they told us that their testing is done before there is 
mass production. But once the design is completed, they didn't 
do any additional testing. Now the pre-market testing has 
significant limitations. The company's durability testing is 
done only on prototype vehicles and components.
    They don't test cars and parts that are actually used by 
drivers. The sample sizes are very small. In fact, only a 
single vehicle was tested. Independent experts consulted by our 
committee have told us that Toyota would need a much larger 
sample size to rule out potential causes of a rare and 
intermittent event like sudden unintended acceleration. In 
addition, Toyota acknowledged to committee staff that it does 
not control the testing performed on critical parts of the 
electronic throttle system that are done by its suppliers. They 
have no documentation to confirm the results of any tests that 
these suppliers chose to perform. The pre-market testing regime 
may be appropriate for testing the design of Toyota vehicles 
before manufacturing starts, but no amount of pre-marketing 
tests can be a substitute for a rigorous examination either to 
identify a post-manufacturing defect, and there is no evidence 
Toyota has done this post-manufacturing testing.
    The results of our examination raise serious questions. 
Toyota has repeatedly told the public that it has conducted 
extensive testing of its vehicles for electronic defects. We 
can find no basis for these assertions. Toyota's assertions may 
be good public relations, but they don't appear to be true. 
Even more confounding is why Toyota has not done more. If they 
are serious about putting safety first, how can they justify 
hiring a litigation consulting firm that takes no written notes 
to lead its investigation into potential defects? The public 
has a right to expect that Toyota will do everything possible 
to find any potential electronic defects. But Toyota didn't do 
that. Instead, Toyota asked its defense counsel to hire a firm 
whose mission appears to be the exact opposite, to obfuscate 
and find no problems.
    I want to be clear about what we know and what we don't 
know. I am not an engineer and I am not a scientist, but I do 
know that dozens of people have died in accidents linked to 
runaway Toyota vehicles. Many of these incidents have occurred 
in vehicles that did not have faulty floor mats or sticky 
pedals. Toyota's priority should be to do everything it can to 
figure out what is causing these frightening events, not to 
protect itself from lawsuits, and I do not believe Toyota has 
met this obligation. Chairman Stupak, I look forward to hearing 
from our witnesses, and thank you for convening the hearing.
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Barton, for 
opening statement, please.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. I think Chairman 
Waxman took his time and my time. He certainly gave an 
extensive statement. I am just going to submit my statement for 
the record and make a few extemporaneous remarks. I share 
Chairman Waxman's concern about finding this problem. I am not 
omnipotent though, less complicated. It is easy to sit up here 
on the podium and point fingers and demand results and act as 
if we know what the answers are, but that is not how life is 
and that is not how engineering is. It is in the best interest 
of NHTSA to solve this problem as quickly as possible. It is 
obviously the best interest of Toyota and the entire automobile 
industry.
    I agree with Chairman Waxman that I don't believe this is a 
sticky pedal-floor mat problem but having said that trying to 
fight a bug in millions of lines of software or find a glitch 
in a hardware system for the electronic ignition and steering 
system is very, very difficult. I am happy that NHTSA purchased 
the vehicle or obtained the vehicle that had the runaway 
acceleration problem that the Smiths talked about in our 
hearing here several months ago. It is my understanding that 
NHTSA engineers have been evaluating that vehicle and haven't 
yet found the problem. I am also pleased that NASA is involved. 
I am pleased that Toyota has hired an independent firm to try 
to figure out the problem.
    Hopefully, today we will get some answers from our NHTSA 
administrator and the president of Toyota. This is a serious 
problem. There is absolutely no question that people have less 
confidence in Toyota vehicles that have experienced most of the 
runaway acceleration problems, and they expect the company and 
the government to solve that problem as quickly and 
expeditiously as possible, but it is very, very difficult in 
the real world. We just have to keep giving our best faith 
efforts. And under the leadership of Mr. Waxman and Mr. Stupak 
and Ranking Member Burgess and myself, we will use our 
resources so that the American people know what the issues are, 
and if there is something we need to do legislatively, we will 
certainly try to do that. I thank you, Mr. Stupak and Mr. 
Waxman, for continuing this investigation, and we will be very 
supportive that the facts are put on the table so the American 
people know what the facts are. And with that, I yield back.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC] [TIFF OMITTED] T6581A.006
    
    [GRAPHIC] [TIFF OMITTED] T6581A.007
    
    [GRAPHIC] [TIFF OMITTED] T6581A.008
    
    [GRAPHIC] [TIFF OMITTED] T6581A.009
    
    Mr. Stupak. Thank you, Mr. Barton. Mr. Dingell for an 
opening statement, please.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman, and I commend you for 
your continuing vigilance in the matter of Toyota's recall 
related to sudden unintended acceleration. I am delighted to 
welcome our witnesses today, Administrator Strickland and Mr. 
Lentz of Toyota. I commend you, Mr. Chairman, for your 
insistence on vigorous, yet fair, oversight in this matter, for 
as you are well aware thorough oversight leads to effective 
legislation, and this subcommittee has been doing that for a 
long time. In view of that, I note that the Subcommittee on 
Commerce, Trade, and Consumer Protection will mark up the Motor 
Vehicle Safety Act of 2010 this afternoon.
    Section 101 of that bill requires the Secretary of 
Transportation to promulgate a motor safety vehicle standard on 
electronic systems, which should enable him to determine 
whether such standard is reasonable, practicable, and 
appropriate. Our hearing today affords us the opportunity to 
examine the state of research both by government and private 
industry on these systems and to assess the feasibility of 
promulgating and implementing a federal motor vehicle safety 
standard covering them. To that end, Mr. Chairman, I intend to 
ask candid questions of our witnesses about the progress of 
their restrictive organizations that has been made in 
determining what, if any, effects surrounding environments have 
on electronic components in vehicles.
    While I believe that Section 101 of the Motor Vehicle 
Safety Act is written with sufficient administrative discretion 
for the Secretary of Transportation, I want to be able to be 
sure that the department will be able to perform the research 
necessary to comply with the requirements of that section. That 
is an important question to be addressed. I would also note 
that the surrounding environments have in the past affected 
motor vehicle safety, and I would remind that electronic flux 
was a source of potential danger from unintended explosions of 
airbags in times past, something which caused injury and death 
to American people. Further, I will seek strict assurances from 
Toyota that it is taking seriously charges that electronic 
interference may have caused sudden unintended acceleration in 
the vehicles recalled late last year and early this year, and 
that Toyota is working diligently to assess them as well as 
correct them if need be.
    And I want to be sure that they are doing the necessary 
research on the question of safety as opposed to just defensive 
measures for the corporation. I look forward to productive 
conversation today. And I thank you for your courtesy, Mr. 
Chairman. I observe again that your work here in this 
subcommittee has led to better legislation, good fact-finding, 
and far better service to the public interest. Thank you.
    Mr. Stupak. Thank you, Mr. Dingell. Mr. Gingrey, for 
opening statement, please, 3 minutes.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Thank you, Mr. Chairman. Today's hearing on 
Toyota and NHTSA's response to the problem of sudden unintended 
acceleration while topically important, I think from reading 
the provided testimony that this hearing will likely yield more 
questions than answers. In fact, many of the fundamental 
questions that members of this committee and that consumers 
have will likely remain unanswered today as both Toyota and 
NHTSA discuss the ongoing status of their reviews, the 
potential connection between unintended rapid acceleration and 
the electronic throttle control system. Mr. Chairman, the 
American people are certainly owed answers about the safety of 
their vehicles.
    However, what the American people do not deserve is another 
hasty legislative response in the form of a bill that few have 
read, nobody understands, and that bears unintended 
consequences much worse than the consequences of inaction. 
However, once NHTSA and Toyota actually complete their various 
reviews of the potential flaws of automotive electronic 
systems, I believe that it will be very important for this 
committee to review those results, understand those results, 
and then act in a manner appropriate to those findings. 
Certainly, with automation and electronic engineering 
continuing to replace the traditional mechanisms, we must also 
ensure that we have the proper metrics to conduct diagnoses and 
ask the right questions to flush out the potential impacts of 
these systems on the safety of our automobiles. With that, Mr. 
Chairman, I thank you and I yield back.
    Mr. Stupak. Thank you. Mrs. Christensen for opening 
statement, please.
    Mrs. Christensen. Thank you, Chairman Stupak. Again, given 
that my 2 daughters, 3 grandchildren and I drive Toyotas, I am 
really pleased that we are having this hearing today to monitor 
the response of Toyota to the accidents and deaths attributed 
to the sudden unintended acceleration of the vehicles. I look 
forward to the testimony of Mr. Strickland and Mr. Lentz on 
what the testing has shown thus far, what responses and 
remedies are being employed, and also to hear that they are 
being applied in the U.S. territories, which are often 
overlooked, as well as in the 50 states. With that, I will 
yield back the balance of my time, Mr. Chairman.
    Mr. Stupak. Thank you. Mr. Griffith for opening statement, 
please.

OPENING STATEMENT OF HON. PARKER GRIFFITH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Griffith. Thank you, Mr. Chairman. I would like to 
thank you and the ranking member for calling this important 
hearing today. In Huntsville, Alabama, the middle of my 
district, Toyota employs 777 people, build 6 cylinder and 8 
cylinder engines, and recently has added the 4 cylinder engine 
to the plant. We employ approximately 1,000 people in this 
district. Toyota had done more than just be a good employer in 
Huntsville. They have given back to the community in many ways. 
In fact, during the recent slow down in production in response 
to the recession, Toyota did not lay off one permanent worker. 
During this time, they sent some employees out into the 
community while others stayed at the plant and worked together 
to streamline and improve the daily functions in both quality 
and safety.
    Since this subcommittee has met to discuss Toyota the 
number of vehicle recall remedies is nearly 3-1/2 million. They 
have also taken steps to deal with communication problems 
between North America and Japan and commissioned a study to 
investigate the sudden unintended accelerations issues. I 
believe that Toyota has shown a good faith effort to fix 
problems and learn from these events to better serve consumers 
in the future, and it seems evident by recent sales that 
customers have faith in Toyota's ability to correct past 
problems.
    I might add that the chairman of the committee seemed upset 
that there was no agreement from Toyota with Dr. Gilbert's 
findings. I find that not only acceptable but we have no one to 
corroborate Dr. Gilbert's findings either, so if we are going 
to base our discussion on a single individual's experiment and 
not a scientific method, I think we are maybe on the wrong 
track there. I don't think there is anyone more interested in 
making sure that their vehicles are safe than Toyota. I don't 
think there is anyone more interested in the safety of the 
public then Toyota as far as this situation is concerned. So it 
seems to me that there is an attitude that somehow we are not 
here in good faith to do what is best for the public, and I 
think we need to examine our attitude and maybe take a 
different approach. I yield back the balance of my time, Mr. 
Chairman.
    Mr. Stupak. Mr. Braley, opening statement.
    Mr. Braley. Thank you, Mr. Chairman. I ask unanimous 
consent to submit my written statement and then just make some 
brief extemporaneous remarks.
    Mr. Stupak. All right. Mr. Latta.
    Mr. Braley. No, no. I was asking for unanimous consent to 
submit my full statement.
    Mr. Stupak. Go ahead.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. During our last hearing on this very important 
issue, Ranking Member Barton drew on his experience as an 
engineer to challenge both Toyota and NHTSA to get to the 
bottom of this problem and to do so with a sense of clarity and 
purpose that had been missing in Toyota's approach to the 
possibility of an electronic component to the problem of sudden 
unanticipated acceleration. So when the ranking member stated 
at the conclusion of his remarks today, he was pleased that 
Toyota had hired an independent firm, I think it was based upon 
the representations that Toyota made at our last hearing that, 
in fact, it had hired Exponent and given it a mission to get to 
the bottom of this problem with an unlimited budget.
    The only problem with that perception is it is contrary to 
the documents that I have been provided and the committee has 
been provided in response to requests for information I made at 
our last hearing because the documents we have been provided 
with show that Toyota's trial lawyers, not Toyota, engaged 
Exponent to conduct this work on December 7, 2009, and did not 
engage Exponent for the purpose of getting to the bottom of 
this problem but for the purpose of defending class action 
claims filed against Toyota and that is the problem with 
Toyota's response since our last hearing.
    If you look at what has been done, it has been primarily an 
effort to try to attack the credibility of the sole witness who 
testified on the connection, the possible connection, between 
an electronic or computer failure and the problem of sudden 
unanticipated acceleration in Toyota's vehicles. And that is 
the disturbing question that we need answers to at this hearing 
today. We need to look at the financial relationship between 
Exponent and Toyota and try to get to the bottom of why so much 
time has been spent focusing time and resources attempting to 
discredit the work of Professor David Gilbert instead of 
getting to the root cause of this problem and determining once 
and for all whether electronic failure is a cause of the 
problem. That is why I look forward to the testimony of our 
witnesses, and I hope that eventually everyone involved in this 
investigation gets to that problem, and I yield back.
    [The prepared statement of Mr. Braley follows:]

    [GRAPHIC] [TIFF OMITTED] T6581A.010
    
    [GRAPHIC] [TIFF OMITTED] T6581A.011
    
    [GRAPHIC] [TIFF OMITTED] T6581A.012
    
    Mr. Stupak. Mr. Braley, I am sorry I didn't hear you before 
when you had asked for your opening statement to be made part 
of the record. It should be noted that all opening statements 
of members of the committee, their opening statements will be 
part of the record. I also move that the contents of our 
document binder be made part of the record. Without objection, 
so be it. My intent is, as members know, we have the President 
of Mexico speaking around 11:00. Let us try to get through all 
opening statements and if we go over a little bit, let us try 
to get our opening statements done before we have to recess for 
a bit. Now, Mr. Latta, for an opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Thank you very much, Mr. Chairman. Mr. Burgess, 
thanks very much for holding this hearing today. First and 
foremost, I believe it is important that these hearings are 
held to get to the facts regarding the sudden unintended 
acceleration. Tragically, according to NHTSA, 52 people have 
died in the past decade due to the incidents of the sudden 
unintended acceleration of Toyota vehicles. NHTSA has initiated 
several queries into Toyota recalls and the agency has leveled 
a $16.4 million fine on the company. Additionally, NASA and the 
National Academy of Sciences has been enlisted by NHTSA to 
undertake a study of the issue. Specifically, NASA will examine 
unintended acceleration in Toyota vehicles and the National 
Academy of Sciences will analyze that acceleration and the role 
of the electronic vehicle systems across the automobile 
industry.
    It is also my understanding that neither is complete at 
this time. Through its recall and deployment of swift market 
analysis response or smart teams, third party analysis, and the 
addition of industry-leading safety features to new models 
Toyota is working to provide quality and safe vehicles. I hope 
this translates into increased safety level and assurance for 
Toyota drivers. Safety is extremely important especially when 
it comes to the automobile industry. I am concerned by any 
precedent that is set by the government that the government 
knows best when it comes to vehicle design. Later today, I will 
participate in a markup of the Motor Vehicle Safety Act of 
2010, which will attempt to dictate to auto manufacturers the 
design of certain parts. Government mandates have a detrimental 
effect on the industry and turn the economy.
    I represent the 5th congressional district of Ohio, which 
is the largest manufacturing district in the state and home to 
many auto suppliers. The technology involved in automobile 
engineering certainly has changed and advanced over the years, 
and it is important that Toyota customers and the American 
public and policymakers understand the electronically 
controlled throttle system and the potential for unintended 
acceleration in Toyotas and all other vehicles. While I was not 
yet a member of the Energy and Commerce Committee for the 
February hearing, I look forward to the hearing today and 
hearing the testimony from the witnesses on the panel. Mr. 
Chairman, I yield back. Thank you.
    Mr. Stupak. Thank you, Mr. Latta. Ms. Schakowsky, for an 
opening statement, please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. Three months ago 
this subcommittee held a hearing about sudden acceleration but 
many questions remained unanswered. In particular, we are still 
unclear about cases where sticky pedals and flawed floor mats 
were ruled out as possible causes. One of the few people who 
proposed a possible answer, as has been mentioned, was David 
Gilbert, an associate professor of automotive technology at 
Southern Illinois University in my home state. Dr. Gilbert 
testified about research he had done in which he was able to 
replicate a situation where sudden unintended acceleration was 
caused by electronic signals but not recorded on the vehicle's 
event data recorder.
    At the same hearing, Mr. Lentz, who is also here today 
testified on behalf of Toyota saying, ``In December we asked 
Exponent, a world class engineering and scientific consulting 
firm, to conduct a comprehensive, independent analysis for 
electronic throttle control system with an unlimited budget.'' 
But what did Exponent come back with? In March they released a 
report that did not conduct a comprehensive report of Toyota's 
electronic throttle control system and possible flaws. Instead, 
their report was entirely a critique of Dr. Gilbert's 
experiment. Of course, scientific research can be questioned 
and disputed but Exponent's efforts did not even attempt to 
find out what the American people or this subcommittee want to 
know. Our constituents want answers and they want an in-depth 
investigation that identifies the causes of potentially fatal 
malfunctions in their vehicles.
    I am glad that NHTSA has moved forward and has asked both 
NASA and the National Academy of Sciences to help conduct an 
investigation that encompasses not just Toyota but all vehicles 
with electronic throttle systems. I look forward to hearing 
from Mr. Strickland about that research and when we can expect 
to hear some results. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Stupak. Thank you, Ms. Schakowsky. Ms. Blackburn, for 
opening statement, please.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Ms. Blackburn. Thank you, Mr. Chairman, and welcome to our 
witnesses. I will have to say, and I know you have heard it 
from many others, we have got concerns over the timing, and I 
have concerns over the tone of this hearing, and it seems like 
we may be a little bit premature in convening this today. For 
the record, Mr. Chairman, I would like to submit a letter that 
I sent to Chairman Dingell in October, 2007, asking for a 
hearing to look into the serious concerns in Tennessee over 
sudden acceleration in the Toyota Tacoma. That letter again was 
in October, 2007. Perhaps if we were a little more proactive in 
investigating this issue 3 years ago, we would not be in the 
position that we are now.
    All too often, Congress is reactive instead of taking 
action in a timely manner when something is brought to our 
attention. As a result, we still don't have definitive answers 
as to what precisely caused the sudden unintended acceleration, 
and it is naive to believe any of the important answers are 
going to come to light in this hearing today. I fear that what 
we are doing is putting the cart before the horse. Many of our 
constituents look at these hearings and they see this as 
grandstanding in an attempt to try and vilify a corporation. I 
have heard from constituents who are employees or suppliers to 
Toyota. They are very concerned that this may be something 
again that is being done to vilify and to score cheap political 
points instead of productively moving forward in an effort to 
actually fix and effectively address this serious issue that 
was first brought to the attention of this committee in 
October, 2007.
    From what I understand from NHTSA and Exponent, there is 
not even a viable hypothesis put forward as to this issue and a 
resolution. That being said, again I want to welcome our 
witnesses, and I am looking forward to hearing from them. And I 
yield back the balance of my time.
    Mr. Stupak. Thank you. It should be noted that Mr. 
Gonzalez, a member of the full committee, is here, cannot give 
an opening statement, but when we go to questions he will 
certainly be allowed to ask questions, so thank you for being 
here, Mr. Gonzalez. That concludes the opening statements by 
all of our subcommittee members. We will now move to our first 
panel. On our first panel we have the Honorable David 
Strickland, who is the Administrator of the National Highway 
Traffic Safety Administration. Mr. Strickland, as you know, it 
is the policy of this subcommittee to take all testimony under 
oath. Please be advised that you have the right under the rules 
of the committee to be advised by counsel during your 
testimony. Do you wish to be represented by counsel?
    Mr. Strickland. No, I do not.
    Mr. Stupak. I am going to ask you, please rise and raise 
your right hand to take the oath.
    [Witness sworn.]
    Mr. Stupak. Let the record reflect the witness replied in 
the affirmative. You are now under oath. If you would like to 
begin with an opening statement, Mr. Strickland, we would 
appreciate it.

   TESTIMONY OF DAVID L. STRICKLAND, ADMINISTRATOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Strickland. Thank you, Chairman Stupak, Ranking Member 
Burgess, and members of the committee. We appreciate this 
opportunity to update you on the activities of the National 
Highway Traffic Safety Administration with regard to unintended 
acceleration involving Toyota vehicles. NHTSA has been very 
active on this subject since Secretary LaHood testified before 
this committee in February. Last week, Secretary LaHood and I 
traveled to Japan to meet with officials of the Japanese 
government and Toyota. Toyota officials informed us of changes 
they have recently made in their management and processes to 
ensure that Toyota officials here in the U.S. have a direct 
role in making vehicle recall decisions.
    The Secretary and I made it very clear to Toyota, including 
Chairman Toyoda himself, that the value of these organizational 
changes will be determined by the company's future safety 
actions. NHTSA and the Department of Transportation will be 
watching. As you know, we initiated 3 separate actions in 
February. The timeliness query related to the pedal entrapment 
recall, a timeliness query related to the sticky pedal recall, 
and an overall recall query looking at both of those recalls, 
if they were sufficient in scope and whether there other 
matters related to unintended acceleration in Toyota vehicles.
    On April 19, Toyota agreed to pay $16,375,000 in civil 
penalties in connection with the sticky pedal timeliness query. 
This is the maximum penalty that NHTSA can access under current 
law. We believe the penalty was warranted because Toyota failed 
to inform us in a timely way about that safety defect. 
Concurrently, we continue to review the large number of 
documents submitted by Toyota in response to the pedal 
entrapment query. We have not reached a decision yet on whether 
the facts of that case warrant a penalty. NHTSA is also 
reviewing an extremely large volume of documents received in 
response to the recall query. We have contracted with the 
Department of Justice to help us categorize and analyze those 
documents. That task will take us some time, but it is well 
underway.
    NHTSA has also started 2 research efforts to address the 
issue of unintended acceleration. The National Academy of 
Sciences, the nation's most respected independent body of top 
scientific experts will examine the broad subject of unintended 
acceleration and electronic vehicle controls across the entire 
automotive industry. The academy has begun the process of 
identifying panel members and the panel will be established by 
July. The panel then expects to complete its work within 15 
months. The results of the work of the National Academy of 
Sciences will be important to NHTSA, not only because of 
unintended acceleration but also to provide advice on a range 
of electronics issues that might affect motor vehicle safety as 
new electronic crash avoidance and other technologies are 
rapidly proliferating within the vehicle fleet.
    Separately, we have enlisted NASA scientists with expertise 
in areas such as computer controlled electronic systems, 
electromagnetic interference, and software integrity to help 
tackle the issue of unintended acceleration in Toyota vehicles. 
NASA's review will be comprehensive and it will assist us in 
determining whether Toyota vehicles may contain safety defects 
that would warrant a formal investigation. We believe that the 
pressure applied by NHTSA has been instrumental in bringing 
about all the recalls Toyota has undertaken to address 
unintended acceleration. We will go wherever the evidence leads 
us to address the root causes of unintended acceleration. We 
will open additional investigations and push for recalls where 
warranted.
    It is our hope that Toyota's recently revamped approach to 
more effectively deal with safety defects will reveal a Toyota 
that is quick to respond to all vehicle safety issues including 
sudden unintended acceleration. Of course, NHTSA is working and 
will continue to work with this committee and with the Senate 
Commerce Committee on legislative proposals that would address 
the unintended acceleration issue across the industry. If 
enacted, this legislation would significantly increase and 
enhance NHTSA's authority and the agency's leverage in dealing 
with all manufacturers. This leverage would be particularly 
important in cases where manufacturers are reluctant to perform 
the necessary safety recalls or who are not completely truthful 
in submitting information to NHTSA. Thank you very much, Mr. 
Chairman and Ranking Member Burgess, and I look forward to 
answering the committee's questions.
    [The prepared statement of Mr. Strickland follows:]

    [GRAPHIC] [TIFF OMITTED] T6581A.013
    
    [GRAPHIC] [TIFF OMITTED] T6581A.014
    
    [GRAPHIC] [TIFF OMITTED] T6581A.015
    
    Mr. Stupak. Thank you, Mr. Strickland. We are going to 
stand in recess for 1 hour. The President of Mexico is here. 
They are gathering on the House Floor. We must recess during 
this period of time, so we will recess for 1 hour. We will have 
you come back in 1 hour. We will go right to questioning then 
by members of the committee.
    Mr. Strickland. Yes, sir.
    Mr. Stupak. This subcommittee stands in recess for 1 hour.
    [Recess.]
    Mr. Stupak. The committee will resume. When we left off, 
Mr. Strickland had testified, so we will begin with members' 
questions. I will begin.
    Mr. Strickland, in our first hearing on sudden unintended 
acceleration in Toyota vehicles, an automotive expert, Dr. 
Gilbert, who was mentioned a couple of times today, testified 
before the committee about an experiment he had run on Toyota 
cars and trucks. Dr. Gilbert reported that he had been able to 
induce sudden unintended acceleration without having the 
vehicles' computers detect a problem. In briefings with 
committee staff, several academics, and independent engineers 
have described Dr. Gilbert's work as a sensible, reasonable, 
and legitimate starting point for an investigation into 
potential causes of sudden unintended acceleration. These 
academics and engineers have discussed with the committee a 
variety of real-world events that could lead to this sort of 
resistive--to the sort of resistive Dr. Gilbert induced in his 
lab.
    But Toyota's response to Dr. Gilbert's testimony was not to 
investigate his work seriously. Instead they have aggressively 
attacked Dr. Gilbert's credibility and motives. It is my 
understanding that NHTSA has taken a different approach with 
Dr. Gilbert and has, in fact, invited him to its testing 
facility so that he can discuss his work with federal officials 
investigating the sudden unintended acceleration in Toyota 
vehicles and cars. Is that correct?
    Mr. Strickland. Yes, sir, that is correct. Actually, the 
engineers at NHTSA have been in fairly regular conversation 
with Dr. Gilbert to arrange a time, and it is my understanding 
that Dr. Gilbert will be visiting our facility in East Liberty, 
Ohio, within the next 2 weeks where he will be given access to 
our laboratory and our facilities to replicate his work, to 
discuss with our engineers and also with the NASA folks as well 
this--this work in addition to other experts. It is very 
important for us to get to an answer, and we are welcoming Dr. 
Gilbert's participation.
    Mr. Stupak. OK. Well, you know, Toyota described Dr. 
Gilbert's work as being phony, parlor trick, words like that. I 
expect you would not invite Dr. Gilbert to participate unless 
you thought he had something to offer to this discussion.
    Mr. Strickland. No. Absolutely not. We believe that Dr. 
Gilbert has created--has replicated a situation where as you 
described, Mr. Chairman, that he could have an incident of 
unintended acceleration without there being a FALCO being 
picked up in the ECM. That is the core of everyone's question, 
and we have to take his work very seriously.
    Mr. Stupak. In--the last time you testified and Secretary 
LaHood testified you were in the process of hiring engineers. 
Has NHTSA hired more engineers?
    Mr. Strickland. We are right now in the process of 
recruiting several. We have our certifications on them, and we 
are beginning the interview process. We hope to get a number of 
folks across electrical engineering, software engineering, and 
other electronics issues onboard very soon.
    Mr. Stupak. The White House in this last week or two put 
out an initiative which they are trying to speed up, if you 
will, the hiring process----
    Mr. Strickland. Yes, sir.
    Mr. Stupak [continuing]. From 5 months to about 5 weeks or 
6 weeks. Have you found that hiring process to be a burden in 
trying to obtain the expertise that you need in NHTSA?
    Mr. Strickland. We are in the process of executing through 
the quick-hire process of the Administration's reforms. We 
definitely appreciate these new reforms, and we are using them 
to advantage or how to get folks onboard as quickly as we can. 
The normal process does have--does require some energy, and the 
reforms are very helpful.
    Mr. Stupak. Let me ask you this. Earlier this week Toyota 
indicated it would recall Lexus LS vehicles. Has there been a 
recall issued yet? They said it might be as early as tomorrow.
    Mr. Strickland. My understanding, sir, is that Toyota will 
be issuing their required documents to NHTSA on Friday. We 
will----
    Mr. Stupak. So they haven't----
    Mr. Strickland. They haven't officially announced a recall 
to NHTSA, but it is my understanding that will happen tomorrow, 
but they have informed NHTSA of the issue that arose in Japan 
and their plan of action.
    Mr. Stupak. All right. The issue rose in Japan, and I think 
there is about another--this is their top line of the LS Lexus 
vehicles. Those vehicles were also sold here in the United 
States. Correct?
    Mr. Strickland. That is correct.
    Mr. Stupak. Have you worked with NHTSA on this recall? I 
mean, I am sorry. Have you worked with Toyota on this recall?
    Mr. Strickland. No. Toyota actually--their work was with 
the Japanese Ministry of Land, Infrastructure, and Transport, 
and through their work found that there was a defect regarding 
the steering mechanism. Once that was found, they reported to 
NHTSA about their plans in Japan and planned to take the same 
steps here in the United States and were working through the 
issues of the remedy, which we--I would imagine that will be 
announced on Friday.
    Mr. Stupak. All right. Have you gone back through your 
database to see if there have been steering problems with these 
Lexus LS?
    Mr. Strickland. Yes, Mr. Chairman, we have. To explain it a 
little more fully, the vehicle population involves the Lexus LS 
for the, I guess, end-of-model year 2009, through 2010, which 
is a vehicle population of 3,800 vehicles here in the United 
States. The Office of Defects Investigation has gone--is going 
through and has gone through our database to see if there were 
similar steering issues. We have not found a complaint as of 
yet, but we are continuing to search the database.
    Even absent that, we appreciate Toyota being forthright and 
taking action in and of our own work, but we are looking to 
make sure that if we have had a similar issue. There were only 
12 of these incidents in Japan if I am not mistaken.
    Mr. Stupak. The last hearing in February I asked the 
question of all the witnesses, Mr. Lentz in particular 
indicated that the mats and the sticky pedal accounted for 
about 16 percent of the unintended acceleration. Have you 
found--have NHTSA through its investigation found any other 
cause for the other 84 percent of the sudden unintended 
acceleration that remains unexplained?
    Mr. Strickland. We are working through several field 
investigations. We have 38 field investigations ongoing looking 
at the span of Toyota's unintended acceleration issues. We are 
leaving no theory unquestioned or unturned. We have found no 
evidence of additional causes of the defect, but that does not 
mean we have stopped looking. We are going to turn over every 
stone. Not only our research ongoing but NASA and the upcoming 
National Academy of Sciences' study but our work is also 
ongoing as to any other possible issues that could be creating 
this fault.
    Mr. Stupak. So we are no closer to resolving the 
unexplained 84 percent of the sudden unintended accelerations?
    Mr. Strickland. That is correct, sir.
    Mr. Stupak. Mr. Burgess for questions.
    Mr. Burgess. Thank you, Mr. Chairman. Mr. Strickland, the 
last hearing we had the--Secretary LaHood said that Toyota 
was--had made some improvements and was going to be--and Toyota 
stated they had appointed a chief quality officer. Then we had 
the whole issue come up with the 2010, Lexus GS460. So did that 
give you an ability to evaluate Toyota's responsiveness to the 
problem with the Lexus as compared to the earlier responses?
    Mr. Strickland. Yes, Mr. Burgess, it has, and I made a 
comment after the Lexus GS460 recall, the Consumer Reports 
recall with the electronic stability control issue. I have 
found since I have taken office in January that Toyota has been 
much more responsive in----
    Mr. Burgess. I don't mean to interrupt but my time is going 
to run out quickly. Did the quality officer make a difference 
then in that environment?
    Mr. Strickland. Well, the quality officer--I was just 
informed of his hiring. They changed the process. Overall the 
result is we have seen better responses. Toyota is working 
through the organization issues, but these past two recalls 
have been--I have been very happy with the responsiveness.
    Mr. Burgess. OK. One of the issues with Professor Gilbert's 
testimony last time, one of the questions that he couldn't 
answer when I asked was how--to give us a real-world scenario 
of how that situation that he described to us would exist. 
Would it be chaffing of a cable holder, how would you get the 
correct amount of resistance placed across the two wires, and I 
never really got a straightforward answer to that.
    In what you have seen so far has--is that a question that 
has been satisfactorily answered in your mind? What is the 
real-world situation that would have to occur in order to meet 
the conditions that Dr. Gilbert outlined?
    Mr. Strickland. That is, I mean, I will definitely have my 
staff and my engineers get back to you after the hearing for, I 
guess, a more technical response, but we are inviting Dr. 
Gilbert out to East Liberty for him to replicate his tests. So 
we haven't had an answer in terms of what would be the real-
world situation to create this fault, but that is something 
that we want to talk to Dr. Gilbert about and have him 
replicate the----
    Mr. Burgess. Will NASA evaluate----
    Mr. Strickland. Yes.
    Mr. Burgess [continuing]. That real-world scenario also?
    Mr. Strickland. Absolutely.
    Mr. Burgess. Can this committee expect to see the results 
of that evaluation?
    Mr. Strickland. Yes. Absolutely. All of the work will be 
made public and provided to the committee.
    Mr. Burgess. Now, in addition to meeting with Dr. Gilbert, 
are you planning to meet with Exponent?
    Mr. Strickland. My understanding is the staff is going to 
be contacted by Exponent, and we will be having conversations 
with every expert working in this area, but we have not had a 
conversation with Exponent as of this point.
    Mr. Burgess. Now, your contract with NASA states that it 
will provide all coordination with independent groups offering 
opinions on possible causes of unintended acceleration. Have 
any of the independent groups asked to meet with NASA?
    Mr. Strickland. My understanding is that there have been 
numerous conversations with experts around the country and 
universities. I will be happy to get back to you on the record 
about which conversations have happened and which ones are to 
be scheduled.
    Mr. Burgess. OK. Has NHTSA or NASA refused any meetings 
with any particular groups?
    Mr. Strickland. No. Absolutely not.
    Mr. Burgess. The--and you will make that other information 
available to us?
    Mr. Strickland. Absolutely, sir.
    Mr. Burgess. Now, when we--and I don't have the data in 
front of me unfortunately any longer, but if we could just look 
at the timeline for the unintended acceleration and the 
introduction of electronic throttle control. The two seem to be 
superimposed events that occurred about in 2002.
    But to the best of my understanding there really--through 
all of your work there has not been a problem identified with 
the electronic throttle control other than the testimony we 
have had from Professor Gilbert.
    So is that the only avenue that is of pursuit that is 
occurring right now?
    Mr. Strickland. Well, we are looking at the whole, the 
entire Toyota fleet regarding this issue through our field 
investigations, but in terms of how we found a defect regarding 
the electronic auto control system from our past work, we have 
not at this point, but that is also the reason why we are 
investing so heavily into making sure that we have a full scope 
of every answer. So that work is ongoing continually, but our 
past work hasn't shown a defect.
    Mr. Burgess. Now, was my email correct that I alluded to 
about the Rhonda Smith car? Chairman Barton, Ranking Member 
Barton said find the car and tear it apart and find out the 
problem. You did look and right now nothing remarkable. Is that 
still the answer?
    Mr. Strickland. That is still correct. The Smith's vehicle 
is one of our test fleet. There is over 20 vehicles total. We 
have begun work on looking at her vehicle in addition to the 
rest of the fleet, and we will be continuing work as part of 
our investigation with NASA.
    Mr. Burgess. Now, when--as I recall Ms. Smith's testimony, 
it was very compelling when she gave it here in committee. One 
of her complaints, if you will, was that no one at Toyota would 
listen to her, but in fact, no one at NHTSA would listen to 
her.
    In light of what you have found with looking at the car, 
are you comfortable that NHTSA's previous evaluation of the 
vehicle shortly after the incident was as thorough as it needed 
to be and that the consumer's complaints were adequately 
addressed? Or should more care have been taken at the time that 
the complaint actually occurred?
    Mr. Strickland. I am very confident of the work that the 
Office of Defects Investigation did for the Smith vehicle. We 
deployed one of our best investigators, and it was a very 
extensive record of his work and his conversations. I reviewed 
it, and I believe that everything that should have happened in 
that investigation was--did happen, and I am very happy with 
the work.
    Mr. Burgess. And that was the work that occurred right 
after the incident?
    Mr. Strickland. That is correct.
    Mr. Burgess. Let me ask you this. When Secretary LaHood was 
here, I had--I have a copy of the publicly available NHTSA 
report on the inspection of a Lexus that was damaged in a 
catastrophic accident in San Diego, the Mark Saylor accident. 
There is a portion of the report that is redacted, paragraph 
five.
    Mr. Strickland. Yes.
    Mr. Burgess. I had asked Secretary LaHood if I could--I 
don't need to have a copy in my hands, but I would like to look 
at the unredacted report. I am willing to come down to the 
Department of Transportation or to your agency to make that 
review. I understand there may be sensitive information that 
the family would not want out in the public domain, but I do 
think it is important that members of this committee be able to 
review an unredacted report of this accident.
    Will you help me get that information that I have asked 
Secretary LaHood to provide to me as a member of the committee?
    Mr. Strickland. Absolutely. I will definitely refer you to 
our Chief Counsel, Kevin Vincent, to--I believe there is 
Privacy Act implications with that information, but anything 
that--as long as we are doing everything within the law and the 
provisions and the information to the Congress, we will 
definitely assist you in that regard.
    Mr. Burgess. I would remind you the committee has subpoena 
power.
    Mr. Strickland. I understand that. Yes, sir.
    Mr. Burgess. All right. Thank you, Mr. Chairman. I will 
yield back.
    Mr. Stupak. Yield back? You are over 2 minutes.
    Ms. Christensen for questions, please.
    Mrs. Christensen. Thanks. Thank you, Mr. Chairman. Mr. 
Strickland, in your testimony and we have heard it from several 
members that Toyota paid $16,375,000 in civil penalties, and in 
your testimony you say that is the maximal penalty available 
under current law.
    Do you think that that is an adequate cap?
    Mr. Strickland. No, madam. I believe that the size of the 
regulated manufacturers under NHTSA's regime is some of the 
largest multi-national corporations on the planet, and on 
occasion I think a $16 million fine may not necessarily give 
the correct deterrent affect.
    I have testified several times that I believe that the cap 
should be significantly raised. I know in the Motor Vehicle 
Safety Act of 2010, the committee thought to remove the cap and 
allow NHTSA the discretion to properly size a penalty. I 
believe that is the correct approach.
    Mrs. Christensen. Thank you. You also say in your testimony 
that you haven't found a basis for opening up any new defect 
investigations on unintended acceleration. What is the 
threshold? What would trigger a reopening of the investigation?
    Mr. Strickland. Well, the two investigations are ongoing in 
regards to time limits. So what we are looking for is any 
document or indication that Toyota knew of a defect that posed 
an unreasonable risk to safety, and if they did not inform 
NHTSA within 5 business days of that discovery, they are in 
violation of the Safety Act and therefore, we would take 
action. We are reviewing several hundred thousand documents in 
that regard. When we have completed our review, if we had made 
a finding that there may be an issue regarding a violation of 
the timeliness of mandates of the Act, we will take action once 
again, but that is--we have made no conclusions. The work is 
ongoing.
    Mrs. Christensen. Thank you. Just one other question. As I 
recall in the last hearing a lot of the decisions were being 
made in Japan, at Toyota in Japan, and in your testimony you 
talk about meeting with the counterparts, your counterparts in 
the Japanese government.
    So how do you--how would you assess their effectiveness, 
their independence, their commitment to strong oversight?
    Mr. Strickland. The Road Transport Bureau and the Japanese 
Ministry of Land, Infrastructure, and Transportation is a very 
vigorous agency that has a very different approach and mandate 
under Japanese law. They are very committed to safety. They do 
have a different relationship with the manufacturers. It is 
statutorily more collaborative than the--how NHTSA's 
relationship is with the manufacturing, manufacturers here in 
the United States.
    However, they are great public services, great engineers, 
and they do a solid job for the Japanese people in terms of 
making sure they create a safe environment in terms of the 
handling of their vehicles.
    But we do have different approaches, but I have every 
confidence that our counterparts are just as involved and just 
as intent upon making sure that the fleet that Toyota puts on 
the road is safe.
    Mrs. Christensen. Thank you. I don't have any other 
questions, Mr. Chairman.
    Mr. Stupak. Thank you, Ms. Christensen.
    Mr. Braley for questions, please.
    Mr. Braley. Thank you, Mr. Chairman, and welcome back, 
Administrator Strickland.
    Mr. Strickland. Mr. Braley, thank you.
    Mr. Braley. It has been awhile since our last hearing on 
this topic where you testified, and I am going to start with a 
little housework.
    Mr. Strickland. Yes, sir.
    Mr. Braley. Since that last hearing I have sent you three 
letters, one on March 3, one on April 22, and again last week 
on May 14, requesting information on complaints by Toyota 
owners who said they had experienced sudden unintended 
acceleration even after their vehicles underwent recall service 
to modify pedals and replace floor mats. And in those letters I 
also requested information about the steps NHTSA was taking to 
review Toyota electronics and ensure effective repairs in all 
affected vehicles, and to this date I have yet to receive a 
response from you or your department.
    Can you give me some indication as to when I can expect a 
response to those inquiries?
    Mr. Strickland. Monday or Tuesday. If it is Tuesday, you 
will get it very early Tuesday. Mr. Braley, it is my 
responsibility to make sure that you, any member of this 
committee, or any member of the Congress, gets a timely 
response. It is my responsibility that it happens. I apologize 
that you have not received that response. I will make sure that 
happens immediately and on a foregoing basis that you get a 
timely response.
    Mr. Braley. Thank you. I appreciate that.
    Do you have a sense as you sit here today how many reports 
NHTSA has received of sudden unintended acceleration in 
previously serviced Toyota vehicles?
    Mr. Strickland. I--we have had a number of reports, 
especially within, I guess within the February, March timeframe 
period after repairs were executed. We have conducted numerous 
interviews and done field investigations. I will definitely get 
back to you on the record with the specific number.
    I do know for a fact that the number of those remedy 
repairs of complaints have markedly decreased since March. I 
know that our staff has worked very closely with Toyota and 
informed them of our findings. There were some issues with how 
the dealers were applying repairs that--and I know that Toyota 
made upon our request, made several modifications to the 
instructions to the dealers on how they apply the remedies, and 
we have seen a marked decrease in the complaints.
    But we are continuing to making sure that the remedy is 
properly applied and any consumer that is still having issues, 
that we follow up.
    Mr. Braley. Are those complaints on previously serviced 
vehicles being forwarded to the entities such as Exponent or 
the NASA investigators who are looking into the potential link 
between an electronic problem and the issue of sudden 
unintended acceleration?
    Mr. Strickland. I can't speak to Exponent getting direct 
access to our work or our data on request. I mean, they are 
positioned as any private citizen in terms of a FOIA request or 
anything of that nature. We are not collaborating with 
Exponent.
    NASA is getting everything that we have in regard to our 
work on sudden unintended acceleration, including those remedy 
repair issues and in addition to all the documents from Toyota. 
So we are--NASA is getting those documents. I don't know if 
Exponent has made a request of that.
    Mr. Braley. Now, have you been provided with copies of the 
materials that Exponent has submitted to the committee in 
response for request for information about their work product 
in connection with this investigation?
    Mr. Strickland. I have not, Mr. Braley, but I have been 
made aware of some of the responses by my staff.
    Mr. Braley. Were you aware that the committee has been 
provided with a report from Exponent that is titled, 
``Evaluation of Gilbert Demonstration?''
    Mr. Strickland. Yes, I am aware of it, sir.
    Mr. Braley. And that we have also been provided with a 
PowerPoint presentation with a similar title, ``Evaluation of 
Dr. Gilbert's Demonstration?''
    Mr. Strickland. Yes, sir. I am aware of it.
    Mr. Braley. Have you seen any other reports in any--in 
either a preliminary, a draft, or a final form from Exponent 
detailing its work analyzing the potential problem of sudden 
unintended acceleration in Toyota vehicles?
    Mr. Strickland. No, sir, I have not.
    Mr. Braley. Were you aware that Exponent has billed 
approximately 11,000 hours of work since the beginning of this 
year on this particular investigation?
    Mr. Strickland. I was not aware of that, but that is a 
significant amount of work.
    Mr. Braley. And because it is a significant amount of work, 
do you find it at all surprising or disturbing that the 
documents we have received to date from Exponent are limited 
specifically to the testimony of one witness who testified at 
our previous hearing on February 23?
    Mr. Strickland. That would not be NHTSA's approach if 
what--our work plan and our work would be incredibly detailed 
in aspecting every minute of what we do. I would imagine that 
the committee would have the expectation, the same expectation 
of Exponent. The fact that you don't have it I would imagine it 
being very troubling to the committee.
    Mr. Braley. All right. Thank you very much. I yield back.
    Mr. Stupak. Mr. Waxman for questions, please, sir.
    Mr. Waxman. Yes. Mr. Strickland, I am just following up on 
that line of questioning. Do you believe it is possible to 
conduct solid engineering work if you don't have a written plan 
for the research, you don't keep a record, the written record 
of the work, which is apparently the situation with Exponent?
    Mr. Strickland. It would be my expectation of NHTSA, 
NHTSA's engineers that we have a proper workflow plan, 
engineering analysis. Everything should be properly documented 
and also in terms of our work with NASA, we have to be prepared 
for a peer review to be conducted by our Volpe Center in 
Cambridge, Massachusetts.
    So that would be an incredibly different cap, how we would 
execute a research plan. So I would say that that would not be 
my expectation if I was dealing with it on the private sector.
    Mr. Waxman. We have learned that Toyota's defense counsel 
controls Exponent's work. They review everything that Exponent 
does, and they have the right to prevent Exponent from 
releasing unfavorable results.
    Does this concern you? Toyota is relying on Exponent to do 
its research, and Exponent is being directed by Toyota's 
defense counsel. Is this the way you think an investigation 
ought to be handled?
    Mr. Strickland. Well, there is two components, I mean, not 
to speak for Toyota. They can clearly speak for themselves.
    Mr. Waxman. They are going to speak for themselves soon.
    Mr. Strickland. But there is, you know, preparation for a 
litigation, and then there is also a scientific investigation 
into the cause of a problem, and those could be mutually 
exclusive. Perhaps Exponent may be doing that additional work 
to deal with answering the question, but from what I have 
understood, all the work has been in preoperational litigation, 
but it is not a scientific analysis or dealing with a 
hypothesis of the problem.
    So I would say that at this point they have not fulfilled--
it is part of the, I guess, the solution in terms of trying to 
find the answer from what you have just described.
    Mr. Waxman. Brake override is a vehicle software technology 
that many auto safety experts say would address the sudden 
unintended acceleration. With brake override if a driver 
applies both the accelerator and the brake at the same time, in 
most situations the car will disregard the accelerator and 
apply the brake.
    I understand that NHTSA is currently evaluating the brake 
override technology and is considering updating its standards 
to require that technology in all cars.
    Do you consider brake override to be a safety feature?
    Mr. Strickland. We believe at NHTSA that safety--that brake 
override has huge implications for safety. It is something that 
we believe has great promise. We are doing our research, and we 
do anticipate that it could have a great value to 
implementation in the fleet, but we have to do our work 
preliminarily.
    But, yes, we consider it a safety feature.
    Mr. Waxman. We have been told that in the course of 
discussing complaints of the sudden unintended acceleration 
with Toyota, NHTSA suggested to Toyota that Toyota retrofit 
some of its models with this brake override. Toyota advised the 
committee that it has decided to make brake override a standard 
feature in all of its cars for the 2011, model year forward. 
Toyota also told us it will upgrade the software in certain 
earlier models during service for other recalls.
    Mr. Strickland, after 2011, when Toyota is done with its 
retrofitting, will there be Toyotas on the road that will not 
have the brake override?
    Mr. Strickland. I would imagine from your answer, sir, no, 
there will be some vehicles that will not have brake override.
    Mr. Waxman. Do you support making brake override a 
mandatory feature for all cars in future model years?
    Mr. Strickland. As I said, we at NHTSA, we are beginning 
our research to justify that such a move, but in a preliminary 
fashion the one thing, the one goal we want to have is this. 
Any driver that presses the brake should be able to stop the 
car, and that--with that goal we believe it has great promise.
    Mr. Waxman. Yes. Well, Toyota has reached a conclusion that 
they want to have this brake override. They think it is 
important. Is there any reason why if they have decided a brake 
override is important for the future cars and some of the 
existing cars that they wouldn't want to make brake override 
available in all cars that are compatible with this feature?
    I will ask them that myself, but can you imagine any reason 
they would not want to do that?
    Mr. Strickland. From a consumer standpoint I would imagine 
that every driver of a Toyota that may have an issue regarding 
sudden unintended acceleration would like to have this feature 
on their car. Speaking as, you know, as a--just speaking as a 
consumer.
    Toyota's decisionmaking in terms of how they implement it 
is an ongoing question, but to answer your question, sir, I 
believe that it would be a positive move for safety and for 
their own driving public.
    Mr. Waxman. Well, I am going to look forward to hearing Mr. 
Lentz's explanation for why it won't be available in all 
Toyotas, because I don't see a reason not to make it all 
available--make it available in all the Toyotas, but we will 
get his response to that.
    Mr. Strickland. Yes, sir.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Waxman.
    Ms. Schakowsky, questions, please.
    Ms. Schakowsky. Thank you. Thank you, Mr. Strickland.
    Toyota relies on two primary justifications for its 
assertion that electronics plays no role in sudden unintended 
acceleration. We have already discussed one of the 
shortcomings, one of the justifications, the work, the 
engineering firm, Exponent, has done for Toyota and the 
problems with that.
    The other justification Toyota relies on is the pre-market 
testing that Toyota's own engineers do before manufacturing 
vehicles for sale to the public. Our committee staff conducted 
a transcribed interview of two Toyota engineers from Japan and 
asked them multiple questions about the company's testing 
protocols. We learned that this pre-market testing has 
significant limitations. Toyota only conducts these--this test 
during the design phase of the vehicles.
    As one of the Toyota engineers we interviewed told the 
committee, ``Once mass production is initiated, then that means 
that the design is completed so we don't conduct anything 
additional.''
    So, Mr. Strickland, does this pre-market testing strike you 
as adequate to identify a cause of sudden unintended 
acceleration?
    Mr. Strickland. Well, Representative Schakowsky, there is 
sort of--there is two components here that NHTSA has concerns 
about. It is compliance. Before a vehicle is put into the 
stream of commerce, it has to be compliant with all the federal 
motor vehicle safety standards, and that is one set of issues 
that has to be taken care of.
    The second part after the vehicle is on the road we worry 
about any defects ex post. Pre-market----
    Ms. Schakowsky. I understand what you are saying, but now 
we are talking about before, but this is before mass 
production. Let me go on.
    Mr. Strickland. Yes.
    Ms. Schakowsky. Toyota engineers also told us that Toyota 
does not perform these design phase tests on a large number of 
vehicles----
    Mr. Strickland. Yes.
    Ms. Schakowsky [continuing]. And as a result, samples may 
not be representative enough to test for the risk of a rare 
event such as a sudden unintended acceleration. Some of the 
tests that Toyota relied on for its claim that the electronic 
system had undergone, ``extensive testing,'' involved sample 
sizes of just one or two vehicles.
    So, Mr. Strickland, does Toyota's approach strike you as 
adequate?
    Mr. Strickland. The approach--every manufacturer has a 
different approach. The only--what we are concerned about is 
what happens on the road.
    Ms. Schakowsky. Well, I understand, but you said that there 
was a pre-market phase that you required. Is the test of one or 
two cars in the design phase in your view sufficient?
    Mr. Strickland. I would have to compare that with other 
manufacturers' testing protocols, and I don't have that----
    Ms. Schakowsky. OK.
    Mr. Strickland [continuing]. At hand, but I will definitely 
get back to you on the record.
    Ms. Schakowsky. OK. Furthermore, we--well, let us see. 
Sudden unintended acceleration occurs rarely and 
intermittently. Do Toyota's tests involving--oh, I asked you 
that. One or two vehicles. OK.
    Furthermore, we learned that fail-safe mechanisms in Toyota 
vehicles are designed to detect single point, single event 
faults. In other words, faults that occur in isolation----
    Mr. Strickland. Yes.
    Ms. Schakowsky [continuing]. And affect only one vehicle 
component. Toyota's testing of critical components of the 
electronic throttle control system reflects this focus in that 
they do not test for multiple event or multiple component 
faults. Numerous academics and independent experts told 
committee staff that rare multiple event faults could play a 
role in sudden unintended acceleration.
    It seems to me that Toyota should try to identify all 
potential faults, not just the most frequent ones and develop 
tests to prevent them.
    So, Mr. Strickland, do you agree that Toyota should take a 
comprehensive approach for--to test for potential causes of 
sudden unintended acceleration?
    Mr. Strickland. They should take a comprehensive approach. 
NHTSA's work with NASA is going to be a multiple fault 
causation study which takes into account possible multiple 
intervening events which could cause this. That is our study. 
That is our approach, and we would have the expectation for our 
findings that if we do find a vehicle defect, that that will be 
part of our response to Toyota if that is the case.
    But NHTSA's approach is a multi-causal analysis in how we 
could replicate that fault.
    Ms. Schakowsky. Based on the description of Toyota's pre-
market testing that you have heard today, do you believe 
Toyota's pre-market testing provides a sufficient basis to 
conclude that there are no potential electronic causes of 
sudden unintended acceleration?
    Mr. Strickland. I don't think you can use a pre-market 
analysis as a determinative factor that there is no problem. I 
think you have to not only do pre-market testing, but you have 
to do long term, you know. I guess long-term studies of how 
your vehicle reacts, you know, in the real world as a number of 
manufacturers do.
    So I don't think that NHTSA would say that a pre-market 
test validates a long-term answer of impossibility of there 
being a failure.
    Ms. Schakowsky. Well, I am concerned about the pre-market 
testing itself, and it seems that Toyotas is not an adequate 
substitute for thorough testing needed to identify potential 
defects after manufacturing is complete and it is time for 
Toyota to stop making public assurances about the infallibility 
of their electronic systems when they don't have comprehensive 
testing to back it up.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you. Mr. Strickland, if I may, I have a 
couple questions.
    Would you give Mr. Strickland the documents?
    In response to some of the questions from Mr. Burgess and 
Chairman Waxman, a couple of questions. The first one is a 
letter dated February 22, 2010, sent to Secretary LaHood by 
myself and Mr. Waxman.
    Mr. Strickland. Yes.
    Mr. Stupak. And on page four, sub-part B asks that NHTSA 
reopen its investigation of PE, that is preliminary 
examination. Right, 04021?
    Mr. Strickland. Yes.
    Mr. Stupak. Which had 37 consumer complaints on sudden 
unintended accelerations in the Camry, 2002, 2003, Camry, 
Solara, and Lexus. We have yet to have a response. Are you 
going to reopen that investigation as requested?
    Mr. Strickland. The Universe of Test Vehicles subsumes 
these, all of these parts that you asked for, so in terms of a 
defect investigation as part of the NHTSA study that is 
ongoing, that we will have done in the--by the end of the 
summer.
    So to answer, the short answer to your question is we are 
reevaluating all this work in light of the NHTSA study in 
addition to--that is going to be included in the NAS study, but 
we will definitely get back to you on the record in direct 
response to Sub-part B.
    Mr. Stupak. OK. Well, if we are looking at that in response 
to Mr. Waxman's question, you said this brake override system 
is a huge safety issue.
    Mr. Strickland. Yes.
    Mr. Stupak. Why wouldn't NHTSA require Toyota then to have 
the brake override system in 2002, and 2003, Lexus ES300s, the 
Toyota Camry, and the Toyota Camry Solara from 2002, 2003, 
since we got at least 37 consumer complaints, and we have asked 
that it be reinvestigated?
    Why wouldn't you require the brake override system be put 
in all vehicles or Toyota models of vehicles that have this 
sudden unintended acceleration that we have unexplained answers 
for?
    Mr. Strickland. It is still an ongoing investigation, Mr. 
Stupak. If we make a finding that it is a vehicle defect based 
upon that, then yes, we would, as part of the mandatory recall 
of those vehicles, we would ask for a remedy and that--and 
brake override could be a mandated part of that remedy because 
it is an investigation that is ongoing, which is inclusive. And 
the key to the NASA study we are not in a position to make that 
demand at this time.
    Mr. Stupak. If Toyota is putting it in some of the vehicles 
now and it will be in all the vehicles in 2011----
    Mr. Strickland. Yes.
    Mr. Stupak [continuing]. Then by putting it in certain 
vehicles now, is that admission then that you have a defect in 
those models and that is why you got to put in this brake 
override?
    Mr. Strickland. That isn't an admission. That is a decision 
that Toyota made independently for whatever reason, and you can 
have--ask Mr. Lentz those questions. But the--from NHTSA's 
perspective we can only force a mandatory recall if we believe 
that there is a defect that we can prove in court and we 
haven't been able to do that yet, but the fact that Toyota 
feels that they need to install this in some vehicles may be 
indicative of what they feel is to be a proper solution until 
they can come to their own answers.
    Mr. Stupak. All right. I guess I will save those questions 
for Mr. Lentz.
    Let me ask you the other document I put before you. It is 
dated 5/2/2007. It is a memorandum from Scott Yon, and this is 
on the Smith vehicle that Mr. Burgess has asked about. In the 
last paragraph, first line it says, ``Discoloration, rust, and 
surface damage to brake, rotors visible through all four wheel 
apertures.'' If you go on, next page, second paragraph, lower 
part of that paragraph it indicates, ``the brake components 
exhibit wear and damage inconsistent with normal operation and 
inconsistent with the indicated vehicle mileage.''
    Then they have a number of photographs which show the 
damage indicates excessive brake temperatures is consistent 
with the brakes being applied vigorously over an extended 
period while the vehicle is moving at speed.
    So the Smith vehicle, while maybe every time you turn the 
key you don't find the sudden unintended acceleration, 
obviously there was some damage there that was outside the 
normal wear and tear on a vehicle of this age. Is that correct?
    Mr. Strickland. Yes, sir. That is correct.
    Mr. Stupak. OK, and you have never found any vehicles that 
has been considered to have SUA, sudden unintended 
acceleration? You haven't been able to turn the keys. You said 
you had 20 models, and you haven't found this sudden unintended 
acceleration?
    Mr. Strickland. We have not had an event where we turned on 
the--where the engineer turned on the car, was able to 
replicate the fault specifically because of something outside 
of the parameters of a floor mat entrapment issue.
    Mr. Stupak. And we don't know when that occurs? That is why 
we give it this name, sudden unintended acceleration?
    Mr. Strickland. There is--yes. Absolutely. We basically 
have to categorize all of those events. There could be multiple 
causes for that, and that is the reason why we are having our 
long-term investigation for the National Academy of Sciences 
and having NASA specifically look at Toyota's electronic 
throttle control system for the study that we are accomplishing 
and will finish at the end of summer.
    Mr. Stupak. OK. My time is up. Mr. Burgess for questions.
    Mr. Burgess. Thank you, Mr. Chairman.
    On the--Mr. Strickland, on the order of the brake override 
that now is receiving so much attention, you mentioned I think 
that installing it, the brake override, in Toyotas would be a 
positive move. Was that--correctly state your feelings?
    Mr. Strickland. Yes, sir. I think it would be a very 
positive move.
    Mr. Burgess. What other manufacturers have installed a 
brake override system on their cars?
    Mr. Strickland. There are several manufacturers that have 
brake override systems.
    Mr. Burgess. Are there some that don't?
    Mr. Strickland. There are some that don't.
    Mr. Burgess. Well, why is that not a requirement if you 
think it would be a good move for Toyota? Would it be a good 
move for other manufacturers?
    Mr. Strickland. We believe that brake override has a 
tremendous amount of promise, which is the reason why we are 
undertaking our preliminary research for possible rulemaking.
    In terms of dealing with this issue, I guess, across the 
rest of the fleet, that is going to be part of a study and part 
of the--one of the answers will be possible long-term 
solutions, either from the National Academy of Sciences, which 
may include----
    Mr. Burgess. Rough numbers, what percentage of the fleet 
has the brake override right now?
    Mr. Strickland. That I am not sure. I would have to get 
back to on the record for that.
    Mr. Burgess. OK, but why isn't it more widely used? What 
are the barriers to the implementation?
    Mr. Strickland. There is--well, there is different systems 
in terms of how the brake and the accelerator work in terms of 
their software configuration, the mechanical linkages. I am 
sure every manufacturer has different strategies in 
manufacturing construction which may lead to different 
decisions.
    Mr. Burgess. I don't want to over-simplify, but if you are 
thinking about rulemaking, then presumably you are looking at 
cars with electronic throttle control, would have a requirement 
for a brake override system so that if the brake is applied, 
the throttle--the default is for the throttle to stop action.
    Mr. Strickland. Yes, sir. We are absolutely looking at.
    Mr. Burgess. And so if that is good for Toyota, then it is 
good for X percent of the fleet that does not have the brake 
override system.
    Mr. Strickland. The goal for all regulations promulgated by 
NHTSA is for the safety of the entire fleet, not one 
manufacturer.
    Mr. Burgess. When we had the other hearing, and I don't 
have the information in front of me today, but it was a list 
rated, a numerical list of complaints received by the--your 
agency----
    Mr. Strickland. Yes.
    Mr. Burgess [continuing]. About cars, and Toyota showed up 
on the list, but they were like, I don't remember, 16, 17, 18 
on the list. That means there were 16 other big car 
manufacturers where the cars had more complaints than Toyota 
and yet here we are involved in a series of hearings over 
Toyota.
    Have you looked at the cars and the complaints that scored 
higher than Toyota or worse then Toyota, if you will, on that 
list, and are we actively pursuing the complaints that came 
into NHTSA for those vehicles as well?
    Mr. Strickland. NHTSA looks at all trends across all 
manufacturers. In terms of how the focus on Toyota, there was 
clearly an anomaly in acceleration events during the period 
that we are talking about, which is the reason why NHTSA has 
opened, you know, up until this point we had, I believe we 
opened eight investigations into this issue prior to the Santee 
crash. So we have not taken a look at--we have treated Toyota 
as we would treat any manufacturer.
    Yes, there are other manufacturers with similar complaints, 
more complaints. We look at them just as vigorously as we do 
Toyota. It is just that in terms of the actual profile and in 
terms of trend analysis, Toyota in this area did have a higher 
tendency towards the later years of the Camry run after 2002.
    Mr. Burgess. And was that all related to models that has 
the electronic throttle control?
    Mr. Strickland. Yes, sir.
    Mr. Burgess. Let me ask you this. Let us talk about NASA 
for just a minute before I run out of time, and you referred to 
the research plan. Has--have you submitted a research plan to--
for NASA's work?
    Mr. Strickland. That is--we are--we will be meeting with 
NASA next week. It required a huge amount of work to get the 
Toyota source code. There is lots of proprietary issues we had 
to overcome. There has been a tremendous amount of documents 
that NASA had to receive in addition to our automotive experts 
working with NASA.
    So our hope is to have a test plan done fairly soon and 
hopefully we will be submitting, once we get that finalized, we 
will submit it to the Volpe Center for peer review. But we have 
not finished our plan yet.
    Mr. Burgess. So you will submit this analysis also for 
evaluation by this committee when you have it in hand?
    Mr. Strickland. Absolutely.
    Mr. Burgess. The time limit on the NASA review is for it to 
be completed by the end of August.
    Mr. Strickland. That is our hope.
    Mr. Burgess. And we don't have a plan yet, but we are going 
to get one. Is that correct?
    Mr. Strickland. Yes. You will get that.
    Mr. Burgess. So what if we get to the end of August and we 
haven't gotten there? What happens then?
    Mr. Strickland. Well, we have a timeline and a goal to make 
sure that we have results, but, you know, Mr. Burgess, the 
primary objective is to make sure that we get it right. So if 
it requires--there is some issues that may require it take us 
more time, we will update the committee about those issues as 
they arise, but our hope is to be done by the end of the 
summer.
    Mr. Burgess. Have you got enough funding to do what you 
need to do, because we, after all, have not done a budget this 
year. We are not going to do any appropriations until late in 
the year. Are you going to be able to pay for the things that 
you need to do to get this information?
    Mr. Strickland. We are, at the time we are properly 
resourced right now. If there is any resource issues that 
confront us in our work, we will definitely come back to the 
Congress and inform them.
    Mr. Burgess. Let the record show that NHTSA is awash in 
cash and needs no more money. I think that is what he just 
said.
    Mr. Strickland. I wouldn't say that, Mr. Burgess, but thank 
you for the implication.
    Mr. Stupak. Thank you, Mr. Burgess.
    Ms. Christensen, any questions?
    Mr. Braley, any further follow-up questions? Mr. Braley.
    Mr. Braley. Yes. Administrator Strickland, one of the 
things I am curious about is the work that your agency is doing 
looking at other types of analysis that are being done by 
manufacturers in other parts of the world. Looking into the 
problem of evaluating electronic throttle control systems, are 
you aware of any of the work that is being done by the European 
manufacturers in terms of education and training to analyze 
potential problems with those systems?
    Mr. Strickland. Mr. Braley, I am not, but I am certain that 
my staff is. I am more than happy to have them come and speak 
to you and your staff and get back to you on the record on any 
questions regarding the differences on approaches between the 
European Union or the Japanese or any other manufacturer.
    Mr. Braley. Be happy to do that and would also encourage 
your staff as part of its work on the investigation of those 
specific problems, to look at what is happening with those 
other manufacturers, what lessons they have learned and what 
their safety record is on the issue of sudden unintended 
acceleration after those programs have been implemented.
    Mr. Strickland. Absolutely.
    Mr. Braley. One of the other questions I wanted to ask you 
about is throughout this process, Toyota has represented to the 
committee that it retained Exponent to conduct an independent 
investigation of the underlying causes related to these 
problems with sudden unintended acceleration, and you have been 
here when we have talked about that.
    Mr. Strickland. Yes, sir.
    Mr. Braley. And they have made similar representations to 
you.
    Mr. Strickland. That is correct.
    Mr. Braley. Now, the company that they have retained to do 
that analysis, Exponent, do you know much about them and what 
they do?
    Mr. Strickland. I am fairly familiar with the company and 
its prior name and the issues that it has worked on over the 
years.
    Mr. Braley. Its prior name being Failure Analysis 
Associates.
    Mr. Strickland. That is correct.
    Mr. Braley. Are you aware of any instance where Failure 
Analysis Associates or Exponent has been retained to do an 
independent analysis on behalf of a consumer who was injured in 
a defective automobile?
    Mr. Strickland. My recollection of Exponent or Failure 
Analysis probably goes back to 1993. So that is the figure that 
I have knowledge of. I am not aware of them doing work for an 
injured consumer or a victim of the product.
    Mr. Braley. All right. Thank you. Those are all the 
questions I have.
    Mr. Stupak. This concludes the questions for this witness. 
Administrator, thank you.
    For the record I would like to enter into the record the 
two documents I presented to the Administrator on questions of 
February 22, 2010, letter from Chairman Waxman and myself to 
Secretary LaHood and also the memorandum dated May 2, 2007, 
concerning the Smith vehicle that we asked questions of.
    [The letter appears at the conclusion of the hearing.]
    Mr. Stupak. So without objection they will be entered in 
the record.
    Thank you, and Mr. Strickland, thank you for being here.
    Mr. Strickland. Thank you, Mr. Chairman.
    Mr. Stupak. Mr. Lentz, thanks for being here. You are on 
our second panel. We have James E. Lentz, who is the President 
and chief operating officer of Toyota Motor Sales in U.S.A. 
Incorporated.
    As you know it is the policy of the subcommittee to take 
all testimony under oath. Please be advised that you have the 
right under the rules of the House to be advised by counsel 
during your testimony. Do you wish to be represented by 
counsel?
    Mr. Lentz. Yes. Ted Hester is behind me.
    Mr. Stupak. OK. Mr. Hester is here then, and you may 
consult with him during any time. If he testifies, we will 
place him under oath at the appropriate time.
    Mr. Lentz. Thank you.
    Mr. Stupak. So I would ask you to please rise, raise your 
right hand to take the oath. Do you swear or affirm the 
testimony you are about to give to be the truth, the whole 
truth, nothing but the truth in the matter pending before this 
committee?
    Mr. Lentz. I do.
    Mr. Stupak. Let the record reflect our witness is under--
replied in the affirmative, and he is now under oath. Mr. 
Lentz, if you would like to begin with an opening statement, 5 
minutes. If you have a longer statement, we will be happy to 
submit it for the record.
    Mr. Lentz. Thank you.

  TESTIMONY OF JAMES E. LENTZ, PRESIDENT AND CHIEF OPERATING 
           OFFICER, TOYOTA MOTOR SALES, U.S.A., INC.

    Mr. Lentz. Thank you, Chairman Stupak, Ranking Member 
Burgess, members of the subcommittee. Thank you for inviting me 
here today. My name is Jim Lentz. I am the President and Chief 
Operating Officer of Toyota Motor Sales U.S.A.
    I am honored to return here to represent the 30,000 
Americans who work for Toyota and the many thousands more from 
our dealerships and suppliers that bring great dedication and 
spirit to their jobs each and every day.
    Three months ago I told this committee that Toyota is 
committed to strengthening our focus on safety and quality 
assurance and communicating effectively with our customers and 
regulators. In subsequent hearings four of my senior colleagues 
from the U.S. and Japan, including our President, Akio Toyoda 
also pledged to improve Toyota's response on safety issues.
    Today I would like to update the committee on substantial 
progress we have made in honoring those commitments. We are 
taking major steps to become a more responsive, safety-focused 
organization. Listening closely to our customers, responding 
more quickly to their concerns, and those of our regulators and 
taking concrete actions to ensure that we are among the 
industry leaders in safety.
    Mr. Toyoda has made improving quality assurance his top 
priority, and our entire company is mobilized to ensure that 
Toyota vehicles are safe and reliable for our customers, not 
only when they are first sold and leased but as they are on the 
road for many years to come.
    Under Mr. Toyoda's personal leadership we have undertaken a 
top to bottom review of our quality assurance process in all 
aspects of our global operations. Importantly, Toyota has 
appointed a new chief quality officer for North American, a 
U.S. executive with more than 3 decades of manufacturing 
expertise to act as the voice of the customer in this region.
    North America now has a greater say on recalls and other 
safety-related issues that affect vehicles sold here in the 
United States. In fact, the chief quality officer has a direct 
line to Mr. Toyoda when it comes to ensuring our customers' 
safety.
    These changes are having a real impact as reflected in the 
speed and decisiveness of our response last month when Consumer 
Reports identified a potential software issue with the vehicle 
stability control in the 2010 Lexus GX460.
    In addition, our SMART evaluation process has significantly 
improved the speed of our response to the customer reports of 
unintended acceleration. SMART stands for Swift Market Analysis 
Response Team, and at its core are 200 highly-trained engineers 
and field technicians who can be deployed anywhere in the U.S. 
to investigate customer reports of unintended acceleration 
onsite.
    Under this new evaluation process the company has completed 
more than 600 onsite vehicle inspections. In our dealership 
technicians have completed an addition 1,400 inspections. These 
examinations are giving us a better understanding about the 
reasons for unintended acceleration complaints.
    Significantly, none of these investigations have found that 
our electronic control system with intelligence, or ETCSI, was 
the cause. We are now making an extraordinary effort to service 
our recalled vehicles and equip all of our new cars and trucks 
with even more advanced safety technologies, including our star 
safety system, brake override, and improved event data 
recorders or EDRs, that will read both pre- and post-crash 
data.
    Our dealers have completed nearly 3.5 million recall 
remedies. That is more than 70 percent of the sticky pedal 
modifications and will continue to reach out to the affected 
owners to make sure that they bring their vehicles to their 
dealer's attention. We are grateful to our customers, for the 
way that they are standing by Toyota.
    Consistent with our pledge to Congress, we now have 150 EDR 
read-out units in North America and have delivered 10 EDR 
readers so that they can conduct their own data retrieval from 
Toyota vehicles during their investigations.
    Additionally, Toyota is well on its way to being the first 
full-line manufacturer to feature brake override technology as 
standard equipment on all the vehicles sold in the United 
States. Brake override will be available across our entire 
product lineup by the end of 2010. We are also taking the 
extraordinary step of retrofitting brake override on seven 
existing models involved in the recalls as an additional 
measure of confidence for our customers.
    Toyota remains confident that our ETCSI system is not the 
cause of unintended acceleration. Toyota and Lexus vehicles are 
inherently designed so that real world, uncommanded 
acceleration of the vehicle cannot occur. We test our vehicles 
extensively to make sure that the fail safes and redundancies 
work.
    Nonetheless, we are making a major scientific effort to 
further validate the safety of our vehicles by opening up our 
technology to an unprecedented level of independent review by 
respected safety, quality, and engineering experts. The 
engineering and scientific consulting firm, Exponent, has 
already completed more than 11,000 hours of testing and the 
analysis of the ETCSI system, and its comprehensive evaluation 
is ongoing.
    I have been advised by Secretary Slater that the Quality 
Advisory Panel he chairs will invite a rigorous peer review of 
that process as part of its assessment of exponent findings, 
and it will be one of the topics of discussion when the panel 
meets with Mr. Toyoda next week in Japan.
    As Mr. Toyoda told Secretary LaHood, we are pleased to 
cooperate fully with NHTSA and through NHTSA with the engineers 
from NASA and their independent evaluation of our ETCSI system.
    We also cooperate with the National Academy of Sciences on 
their evaluation of Toyota and Lexus vehicles as they study the 
industry-wide issue of automotive safety.
    Members of the committee, at Toyota we are committed to 
doing more than just correcting mistakes from the past. We are 
learning from them, and we are making major steps to avoid them 
in the future.
    I would like to quote the words of Mike Getz, Toyota team 
member for 22 years in Georgetown, Kentucky, plant. In One Team 
on All Levels, a book which is--means what it is to work at our 
plant in Kentucky, and it is written by the team members of the 
Georgetown plant, and Mike writes, ``Toyota makes mistakes, but 
we are expected to take ownership to find out why and ensure 
that we learn from them and prevent reoccurrence.'' And we 
don't just say that. We actually do that. That has been the 
Toyota way for 70 years.
    For the future, by acting swiftly on safety issues whenever 
they arise, we are determined to set a new standard for quality 
customer care for vehicles on the road. Our goal is to lead the 
way for our industry.
    Thank you very much, and I am happy to answer any of your 
questions.
    [The prepared statement of Mr. Lentz follows:]

    [GRAPHIC] [TIFF OMITTED] T6581A.016
    
    [GRAPHIC] [TIFF OMITTED] T6581A.017
    
    [GRAPHIC] [TIFF OMITTED] T6581A.018
    
    [GRAPHIC] [TIFF OMITTED] T6581A.019
    
    [GRAPHIC] [TIFF OMITTED] T6581A.020
    
    Mr. Stupak. Thank you, Mr. Lentz, and thank you, again, for 
being here.
    Let me start, I asked Mr. Strickland, but let me ask you 
this question. Last time you were here in February you 
testified that the mats and the sticky pedal accounted for 
about 16 percent of the sudden unintended accelerations, and 
that is 84 percent of them we cannot--we have no answer for.
    Are we any closer to finding out what about those other 84 
percent of the sudden unintended acceleration? What is the 
cause of it?
    Mr. Lentz. Well, I think part of it is it depends on the 
database that you are looking at. In the case of NHTSA's 
database it is lumped together as speed control. So it includes 
not only events of sudden unintended acceleration, but it 
includes any other type of surge or hesitation event. So when 
we spoke last, I am confident of three things.
    I am confident that the sticky pedal is being repaired. We 
are already almost 70 percent repaired.
    Mr. Stupak. Correct.
    Mr. Lentz. I am confident that we are going to be under 
control on the mats. I am confident that ETCSI----
    Mr. Stupak. But even if you do 100 percent mats, 100 
percent sticky pedal, we still have 84 percent of--and these 
are numbers we used last time. Here is our 2,262 sudden 
acceleration reports since 1999. Eight-hundred and 15 crashes, 
341 injuries, 19 deaths in the United States.
    So the 84 percent was from the 2262. So that means 84 
percent of them, even if you did 100 percent mats, even if you 
did 100 percent sticky pedal, we still have 84 percent we don't 
have an answer for. You tell us you have 11,000 hours that 
Exponent has done. What did they conclude? What did those tests 
show? We have no reports. They won't give us any reports.
    So what did the 11,000 hours of testing, what was it about? 
What was done? Was it on the computer, was it on the 
microprocessors? We don't know because Exponent won't provide 
us any information.
    Mr. Lentz. Well, a couple different questions in there.
    Mr. Stupak. A lot of questions there.
    Mr. Lentz. There are a lot of questions in there. First 
off, in terms of surges and hesitations, the possibility of 
pedal misapplication, even though we are going to do these two 
mechanical fixes, those are still going to exist, and they 
still can be reported to NHTSA as speed control because it is 
such a broad category. That is part of that 84 percent number 
that is in that number.
    In terms of Exponent and the scope of their work, they 
provided the committee back, I believe, around the time that I 
testified.
    Mr. Stupak. An interim report. That is all we received.
    Mr. Lentz. From very, very preliminary----
    Mr. Stupak. Right.
    Mr. Lentz [continuing]. On a small portion of what they are 
testing. I believe yesterday they provided a second report to 
you all with more information, but they are testing not only 
vehicle electronics, they are testing EMI, they are testing 
everything that could possibly create unintended acceleration.
    Mr. Stupak. I guess I would agree with you, but you come 
and say we are doing everything, and Exponent has this open-
ended ability to do what needs to be done. You testified there 
is 11,000 hours, and what Exponent says and all we have this 
February. It says, ``It is important to know that at this stage 
of our work we neither claimed to have looked at all issues, 
nor have opined on the cause of the incidents of unintended 
acceleration that have been reported.''
    We agree that further work needs to be performed before we 
reach such opinions and further work is underway, and when we 
asked, we received no reports. They just said, well, work is 
underway. Is all this in some engineers' or scientists' head? 
No one writes down what they are doing for 11,000 hours? How 
would you even pay them? I mean, we have their payment 
schedule, $485 for this person or that person. How in the heck 
do you know if you are getting anything for your money?
    Mr. Lentz. Well, you know, I am convinced that in the end 
when we see the final report, and it is going to be made 
public, it would be peer reviewed, and Secretary Slater is also 
going to review what is taking place. I am confident that with 
what they are doing we will see a very independent report, 
number one.
    Number two----
    Mr. Stupak. When are we going to see a final report?
    Mr. Lentz. I don't have an exact date. We are----
    Mr. Stupak. We are holding NASA to the end of the August. 
Can we have Exponent's final report by the end of the August?
    Mr. Lentz. I don't think that they have committed to me a 
given date, but I will tell you this. That in the case of 
Exponent you are right. I have listened to the comments in the 
past, that they were reporting through product liability 
attorneys. That changed this week. Steve St. Angelo, as we 
continued to expand the quality officer's job in North America, 
Steve St. Angelo, Exponent is now reporting to Steve St. 
Angelo, and all of their work will report through Steve St. 
Angelo. And I know we have a conference call next week as we do 
every week with the Quality Task Force, and I am sure Steve, 
being from--he is from the manufacturing, engineering side, he 
is going to demand that we have a work process with Exponent 
going forward, and as soon as we have that, you will have that.
    Mr. Stupak. OK. Your counsel has sort of indicated that the 
Exponent contract did not change at all, so is this going to be 
a new change that is bringing about, or is it going to be 
reduced to writing about who they are going to report to and 
how they are going to get this to your safety----
    Mr. Lentz. A letter has already gone to Zabia at Exponent 
from Steve St. Angelo.
    Mr. Stupak. When you get a chance, would you get it to the 
committee if you don't mind? Can we just see the document?
    Mr. Lentz. It was submitted with our written statement.
    Mr. Stupak. OK. All right. Now, let me ask you this one 
last question. My time is up. Is there going to be a recall 
tomorrow on these Lexus LS vehicles?
    Mr. Lentz. I don't know for certain the timing.
    Mr. Stupak. OK, but there is going to be a recall on some 
of these vehicles----
    Mr. Lentz. Yes.
    Mr. Stupak [continuing]. On a steering problem. Correct?
    Mr. Lentz. Yes, and it is because of the experience in 
Japan. The steering component that creates this is standard in 
Japan on all LS's.
    Mr. Stupak. Right, and then that is a computer-driven 
steering issue?
    Mr. Lentz. It is computer driven.
    Mr. Stupak. Have you had any complaints here in this 
country about the steering on these?
    Mr. Lentz. We have not had any complaints but now that 
Japan has had the issue, we are combing through our files to 
see if there is anything. It is on roughly 50 percent of the 
LS's in the United States. It is not standard on all vehicles 
in the U.S.----
    Mr. Stupak. OK.
    Mr. Lentz [continuing]. Like it is in Japan.
    Mr. Stupak. Well, 3,800 vehicles here in the United States 
I think it is.
    Mr. Lentz. Yes. About--I think 24, 2,500 that have been 
sold, and about 1,400 that are either in dealer stock, core 
stock, or on their way to us that could be impacted.
    Mr. Stupak. OK. Mr. Burgess for questions, please.
    Mr. Burgess. Thank you, Mr. Chairman. Mr. Lentz, thank you 
for being with us again this afternoon.
    Chairman Stupak's opening statement made a lot of reference 
to polling. He didn't have any questions on it. I am not sure 
that I do, but would you care to respond to some of the things 
that--some of the statements that were made in the opening 
statement by the chairman of the subcommittee?
    Mr. Lentz. Yes. We have the polling company of--I don't 
recall their name right now, but they have done polls for us 
for about 3 years.
    Mr. Burgess. Benenson Strategy Group?
    Mr. Lentz. That is--yes. I am sorry. They have done polls 
for us for about the last 3 years. They have probably done at 
least 2 dozen polls in the past. The poll that is in question 
was done soon after my testimony. It was done soon after the 
ABC expose ran about unintended acceleration, and there were 
questions within that that asked questions about Dr. Gilbert 
and about Shawn Kane and about ABC. There were a lot of other 
questions of the things that we are measuring as well, but, 
yes, we did do research polling about the work done by Dr. 
Gilbert.
    Mr. Burgess. Can you, if it is not proprietary, can you 
give us an idea of the sample size?
    Mr. Lentz. I believe it was around 1,000. I may not be 
exact. We will find it was 980 or 990.
    Mr. Burgess. But, of course, you would have no reason to 
publicly state the fact that you are doing a poll. Typically a 
company would not publicize that it is polling because that 
might influence the results of the poll. Is that correct?
    Mr. Lentz. Correct.
    Mr. Burgess. Now, have you--you did this in response to the 
ABC news piece. Have--is it unusual for your company to do 
polling-related--do other issues of the day that may relate to 
your particular industry?
    Mr. Lentz. Well, I think it is, but I think the ABC news 
piece was very unusual as well. I mean, it was a clear attack 
on the reputation of the company, and it really caste out about 
electronic throttle control systems. So we felt it was very, 
very important to our customers, to our dealers.
    Mr. Burgess. But, sir, if you didn't make it public, then 
it was obviously in your best interest not to go public with 
that information. Well, who did?
    Mr. Lentz. Made which public?
    Mr. Burgess. The poll on the ABC news hit piece, ABC news 
piece.
    Mr. Lentz. Yes. I don't know the answer to that.
    Mr. Burgess. But you did not. Your company did not.
    Mr. Lentz. Not to my knowledge. No.
    Mr. Burgess. So it was leaked to a usually-reliable source 
and----
    Mr. Lentz. It could possibly be. I don't know. I mean, at 
the time that we were using that--doing that polling, we didn't 
know how much damage that ABC report had done to our 
reputation, and we were contemplating whether or not we would 
have to do newspaper advertising to try to explain our side, 
and quite frankly, the results of the polling indicated that 
the consumers really didn't know much about what they had said, 
and quite frankly, didn't care a lot about it.
    So we didn't end up doing anything about it.
    Mr. Burgess. Now, you have had your engineering firm, 
Exponent, to review and try to replicate the conditions that 
Professor Gilbert outlined----
    Mr. Lentz. Yes.
    Mr. Burgess [continuing]. To us here on the committee. Was 
that the decision made before you commissioned the poll from 
the Benenson Strategy Group?
    Mr. Lentz. That actually took place the evening before my 
testimony. So when we found out that ABC was running that, 
Exponent worked that night to see how many other vehicles they 
could replicate. So that would have been before the polling.
    Mr. Burgess. Did you run any ads based on the information 
you received, retrieved from the polling data?
    Mr. Lentz. Not that I know of. I mean, there have--some of 
our advertising in terms of in America has been run based on 
some of that polling information, but to my understanding with 
regard to Gilbert and Kane I don't believe we have run anything 
on that.
    Mr. Burgess. On the--we have had some talk about the brake 
overrides and fixes for the sudden unintended acceleration. 
Last fall your company announced that it will be installing 
brake override on certain models. Will this cover all models of 
Toyotas that have been the subject of sudden unintended 
acceleration? Going back and retroactively installing the brake 
override system?
    Mr. Lentz. Yes. Not on every single vehicle. The first cut 
to decide where we would put those were really on all vehicles 
that had the pushbutton start, stop. So Camry is an example. 
Some models do. We put it across the entire Camry line. Same 
with IS, same with ES, same with, I believe, Avalon.
    We then took a second cut and took a look at based on 
NHTSA's data of high incidence of sudden acceleration, what 
other vehicles might we add to that for additional consumer 
confidence.
    Mr. Burgess. Well, why wouldn't you just add it to all 
models for consumer confidence?
    Mr. Lentz. Well, it is an additional eight million 
vehicles. In some cases some of those models when you look at 
the NHTSA database, actually has a much less-than-average 
incident rate of sudden acceleration. It is not the same across 
all vehicles on the Toyota or Lexus side.
    And I think part of it is the tremendous amount of 
engineering resource and time that it takes to do that.
    Mr. Burgess. You are trying to rebuild consumer confidence 
after a very damaging----
    Mr. Lentz. Yes.
    Mr. Burgess [continuing]. Series of events the past eight 
months that does seem like it would make sense if that is the 
way to repair consumer confidence, add the feature and then 
none of the rest of us have to worry.
    Will that brake override system prevent every and all 
instance and type of sudden unintended acceleration?
    Mr. Lentz. It only works if you step on the brake.
    Mr. Burgess. OK. Let me ask you this if I could. You have 
been very indulgent. I just want to say at least in my part of 
the world that your dealerships have done an excellent job 
opening early, staying late. I have had multiple, anecdotal 
experiences from people, my own experience with your dealership 
in Lewisville. I think they have done very well by your company 
in what was a pretty tough time. They stepped up, met the 
challenge, and have taken it--have met it head on. So a lot of 
it is to your dealers in the North Texas area. They are doing a 
great job.
    Mr. Lentz. Thank you. They are tremendous partners of ours, 
and they understand the value of taking care of customers. So 
thank you.
    Mr. Stupak. Mr. Chairman, Chairman Waxman for questions, 
please.
    Mr. Waxman. Thank you, Mr. Chairman and Mr. Lentz. I am 
still confused, because as I hear what you are saying, Exponent 
is continuing to do research for you, but they are not going to 
do it for the trial lawyers, they are going to do it for one of 
your corporate executives. This will be----
    Mr. Lentz. I don't think they are necessarily exclusive. I 
think as it has evolved----
    Mr. Waxman. OK. So they are still doing research?
    Mr. Lentz. Yes.
    Mr. Waxman. And you have told them to do a comprehensive 
evaluation, spare no budget?
    Mr. Lentz. Yes.
    Mr. Waxman. Do everything that needs to be done.
    Mr. Lentz. Yes.
    Mr. Waxman. Have they completed their research?
    Mr. Lentz. No.
    Mr. Waxman. OK. Now, when you were here last, they had done 
an interim report. That is all we had at that point. That 
interim report didn't tell us much, yet you and--not as much 
you but others from Toyota assured the American people that it 
is not the--that the whole electronic system that it could 
possibly be the cause of sudden acceleration.
    How could you be so sure about that?
    Mr. Lentz. The only way that we can be sure, and I am more 
confident today than I was in the past, is that we know that we 
do a lot of work and a lot of research before we put the 
vehicles on the road, and I know I will have additional 
questions on that.
    As well, today as these SMART teams are going out and 
investigating these--we have had 600----
    Mr. Waxman. But we were told that you were relying on 
Exponent's research and their conclusions, but you weren't 
relying on their conclusions because they hadn't finished their 
report. They still haven't finished that report.
    Mr. Lentz. No. They still haven't finished, but they are--
--
    Mr. Waxman. So you are relying on what you were told about 
the work that was being done in Japan before the products were 
put into mass production.
    Mr. Lentz. Yes, and let me----
    Mr. Waxman. And I raised some concerns about that in my 
opening statement, but let us go back to explain it because it 
has been held out to us that Exponent has put this issue to 
rest. That is why Exponent's doing this work.
    And I just can't understand why you are so absolutely 
certain, you say you are even more certain now than you were 
then.
    But still you haven't had an Exponent's report. You are 
going to have a peer review. Why are you bothering to do all 
that if you are absolutely convinced based on the other work 
that you are doing?
    Mr. Lentz. Because we want to ensure that the public and 
our customers, that they have the confidence, that this has 
been reviewed independently, scientifically, peer reviewed, 
even having Secretary Slater review the process.
    Mr. Waxman. Hold on a second. Former Secretary Slater.
    Mr. Lentz. Former. Yes. I am sorry.
    Mr. Waxman. Well, we heard from the head of NHTSA, Mr. 
Strickland, and he doesn't feel that he can rely on what he 
knows of Exponent's work. Exponent seems to be working for the 
lawyers. He says it is not mutually exclusive for doing work 
for your corporations, but everything that they have shown us 
by way of documents gives us no sense that they have come to 
any conclusions. In fact, we have no sense they are even 
looking at this issue because they haven't even had it on the 
list of things that they were evaluating.
    If Exponent is doing the job you describe in your 
testimony, providing a comprehensive assessment, it presumably 
would be undertaking a complicated, multi-disciplinary 
investigation involving numerous rounds of testing and 
analysis, but Dr. Sori told our staff that at any given time 
that ten to 25 people could be working on the Toyota project, 
and there is no written communication among these people. There 
is nothing by way of any written notes.
    Science is what we need to have evaluated, so I just raise 
that issue. I still am not satisfied because you are now 
relying on something other than Exponent to give you that 
certainty.
    I want to ask you a different question before my time is 
up, and that is this question of the brake override. Why are 
you doing a brake override? What is the purpose of it?
    Mr. Lentz. It is to help with added consumer confidence in 
our products.
    Mr. Waxman. Is it for safety?
    Mr. Lentz. I think for some people it could be safety. I 
can't speak for all the consumers to say that 100 percent of 
the consumers will see that as safety.
    Mr. Waxman. Well, not how they see it. I don't care how 
they see it. Is it going to make the car safer?
    Mr. Lentz. There are other redundancies within a car today 
that will make that car stop. Today, even at full throttle, 
full brake pressure will stop a car.
    Mr. Waxman. And you don't think there is any safety need 
for it?
    Mr. Lentz. I believe there is. Otherwise we wouldn't be 
putting it on future models, but it does add consumer 
confidence. I can't tell you every consumer----
    Mr. Waxman. No. It seems to me you are saying something 
different here. You are saying it will make people feel better. 
That is consumer confidence. But are you willing to say that it 
is going to make the cars safer?
    Mr. Lentz. I can't say 100 percent that it necessarily 
makes cars safer. It is--they are different. It is just like 
cars----
    Mr. Waxman. Let me--they said it costs around $50 to do 
this, but you are not doing it for all your cars. You are not 
going back. You are retrofitting some of the cars but not 
others. Why have you made that decision? Don't you feel that 
those who are driving less-expensive Toyotas would sense that 
they have a brake override that is going to protect them?
    Mr. Lentz. It is not a question of what people pay for 
their cars. We started, as I mentioned before, we started with 
the four vehicles that had pushbutton start.
    Mr. Waxman. Are you going to get to the other vehicles?
    Mr. Lentz. We then went to an additional three models that 
were high on the overall NHTSA complaint list.
    Mr. Waxman. Are you going to get to all the other vehicles?
    Mr. Lentz. We are not--we will not get to all the other 
vehicles going back.
    Mr. Waxman. Do you have a brake override in your car?
    Mr. Lentz. I drive a hybrid that has the equivalent of it.
    Mr. Waxman. And why shouldn't----
    Mr. Lentz. My son does not in his, and I don't feel----
    Mr. Waxman. What?
    Mr. Lentz. My son does not have brake override in his 
vehicle, and I do not feel that he is not safe.
    Mr. Waxman. OK, but what if I as a Toyota owner wanted to 
spend $50 and get that in my car?
    Mr. Lentz. If it hasn't been developed, it is a totally new 
software. If it is not developed, it is not developed.
    Mr. Waxman. Well, it is developed enough that you are 
putting it in most of the Toyotas.
    Mr. Lentz. It is unique to each and every vehicle.
    Mr. Waxman. But you are going to put it on future Toyotas.
    Mr. Lentz. Yes.
    Mr. Waxman. Each and every vehicle for Toyota in the 
future.
    Mr. Lentz. Yes, but it is unique----
    Mr. Waxman. And you are retrofitting it for some of them 
but not all of them.
    Mr. Lentz [continuing]. To each and every vehicle going 
backwards. The amount of time that it would take to be able to 
do it is just not----
    Mr. Waxman. Mr. Lentz, with all due respect, what I hear 
you saying is you want people to feel good so you tell them 
Exponent has said that it is not the electronics. They should 
be assured, and I don't believe you can say that. That was the 
past testimony. You are saying people ought to feel good about 
the brake override, but you are not willing to say that that is 
really for safety.
    I don't see that you are giving us assurances on safety. It 
seems to me you are working around attitudes. That attitude you 
want to develop is people should feel good about Toyota. I want 
people to feel good about their safety.
    Mr. Lentz. I understand, but understand, it is an 
extraordinary effort. I don't know of another manufacturer that 
has gone back to retrofit vehicles with any type of safety like 
this.
    So even to do three million going back on these seven 
models, is an extraordinary effort for any manufacturer to do 
and----
    Mr. Waxman. My time--I didn't want to interrupt you if you 
are finished.
    Mr. Lentz. No. That is fine. Thank you.
    Mr. Waxman. My time has more than expired. Thank you, Mr. 
Chairman, for letting me go over, but as you can tell I am 
still not satisfied. Thank you.
    Mr. Stupak. Ms. Christensen for questions, please.
    Mrs. Christensen. Thank you, Mr. Chairman. Mr. Lentz, in 
the prior hearing it seemed and I sort of asked a question 
related to this before, all the major decisions are being made 
in Japan. Toyota, Japan, and there seems to be a disconnect 
between what was happening with Toyota-made cars in different 
parts of the world. No communication for example. What was 
happening in Europe with Toyota? You and Toyota U.S. for 
example.
    How would having a special committee on global quality and 
a chief quality officer have made a difference if those offices 
existed back then?
    Mr. Lentz. The biggest difference is not only that we have 
a global quality officer, but we have an individual who is 
responsible for recalls now in the United States. The world has 
been divided up now into I believe it is six different regions. 
So Europe has a representative, China has a representative, the 
U.S. has a representative. They will share in all the 
information and all the data that is going on on a global 
basis.
    So if there was----
    Mrs. Christensen. That didn't happen before?
    Mr. Lentz. That did not happen before. The decisions were 
made in Japan and communicated to us. Now that information will 
be visible to this individual, and this individual will work 
with one other person in Japan to make that decision whether or 
not that there is a recall or not. If he is not satisfied, 
Steve St. Angelo has the ability to go directly to Akio Toyoda 
and discuss the situation. So not only do we have input now, 
but we can go all the way to the President of the company if we 
are not satisfied with what the decision is.
    So that is very, very different than before.
    Mrs. Christensen. And you have the North American Quality 
Advisory Panel. They are appointed and paid by Toyota?
    Mr. Lentz. Yes. Mr. Slater was initially suggested by 
Toyota, and he basically handpicked the rest of the 
representatives on that committee.
    Mrs. Christensen. So, I mean, other than relying on the 
high respect that we have for the stewardship and the integrity 
of Rodney Slater, who may not always be, I mean, for any number 
of reasons he could leave, how do we ensure that there is 
adequate independence in this advisory panel?
    Mr. Lentz. You know, I think you have to look at the 
results of what happens over the next few years. We are very 
confident that--and not only Mr. Slater but the additional 
members of his panel. I believe they have already spent time 
with our people. They have already spent time with Exponent, 
and they seem to be very, very independent, very upfront and 
are asking tremendous questions, and I think the yare going to 
add tremendous value to our overall organization.
    Mrs. Christensen. And my last question, the initiatives 
such as SMART, are they happening in the territories as well as 
in the states? We have a big Toyota market in the Virgin 
Islands.
    Mr. Lentz. Yes. I can't tell you specifically in the Virgin 
Islands. Our SMART team has not been requested to go, but after 
your comments today, I am going to make sure that Japan 
understands if they need technical expertise, we will give them 
that assistance. I know on the engineering side from the team 
aside, that they do cover the Caribbean. Our SMART team does 
not outside of Puerto Rico, which is under TMS control.
    Mrs. Christensen. OK. Well----
    Mr. Lentz. We will----
    Mrs. Christensen [continuing]. Puerto Rico covers the U.S. 
Virgin Islands.
    Mr. Lentz. OK.
    Mrs. Christensen. Thank you.
    Mr. Stupak. Mr. Braley for questions.
    Mr. Braley. Thank you. Mr. Lentz, welcome back.
    Mr. Lentz. Thank you.
    Mr. Braley. I want to explore in a little more detail 
Toyota's relationship with Exponent. When you appeared before 
the subcommittee on February 23 of 2010, you submitted a 
written statement. Do you remember that?
    Mr. Lentz. Yes.
    Mr. Braley. And on page two of your written statement you 
said, ``We asked Exponent in December, a world-class 
engineering and scientific consulting firm, to conduct a 
comprehensive, independent analysis of our electronic throttle 
control system with an unlimited budget.'' Do you recall making 
that statement?
    Mr. Lentz. Yes, sir.
    Mr. Braley. And at the conclusion of that hearing I 
requested a copy of any documents that would verify the nature 
of the relationship between Toyota and Exponent, and in 
response to that request we received from your attorneys, King 
& Spaulding, a copy of a document listed as attachment A, which 
we will put up on the screen and which you have in front of 
you, and this is an agreement dated December 7, 2009, between 
Joel Smith at Bowman & Brooke Law Firm in Columbia, South 
Carolina, with Exponent.
    Would you agree with that?
    Mr. Lentz. Yes.
    Mr. Braley. And under the term subject, it says Toyota 
class actions. Do you see that?
    Mr. Lentz. Yes.
    Mr. Braley. You know what a class action is.
    Mr. Lentz. Yes, sir.
    Mr. Braley. It is a group of claims against a manufacturer 
that have been accumulated for the purpose of pursuing relief. 
Did I state that correctly?
    Mr. Lentz. Yes.
    Mr. Braley. And then in the first paragraph it says, ``Dear 
Joel,'' and then it outlines the scope of services under the 
agreement. It says, ``Our scope of services is anticipated to 
include engineering consulting services related to class 
actions filed against Toyota.''
    Do you see that?
    Mr. Lentz. Yes.
    Mr. Braley. And you would agree that class actions filed 
against Toyota are separate and distinct from an independent 
analysis of what is causing this problem.
    Mr. Lentz. I understand that, but I can tell you that----
    Mr. Braley. Well, let me just go on then to the rest of 
this letter. Down in paragraph three it says, and this is an 
agreement between Bowman & Brooke, a law firm in California, 
and Exponent. It says, ``It is our understanding that 
Exponent's retention on this project is solely with your 
organization,'' and the organization that Exponent is referring 
to is the law firm of Bowman & Brooke. You would agree with 
that.
    Mr. Lentz. Yes.
    Mr. Braley. And it says, all charges incurred by Exponent 
on this project, and that is the Toyota class action project, 
will be the responsibility of Bowman & Brooke, independent of 
other parties involved. Do you see that?
    Mr. Lentz. Yes.
    Mr. Braley. So it is clear that when Exponent was first 
retained they entered into an agreement with a law firm in 
South Carolina, not with Toyota directly, and the subject of 
that agreement was to investigate class action claims against 
Toyota.
    Mr. Lentz. I understand.
    Mr. Braley. Correct? And we heard from Administrator 
Strickland, he put this in perspective when he said there is 
preparation for litigation and there is scientific analysis 
consisting of a detailed analysis of the cause of a problem and 
eliminating it. You would agree. There is a distinction.
    Mr. Lentz. I don't know that for certain.
    Mr. Braley. Well, let us look at it, because we also 
received an attachment D, a summary of what Exponent had been 
paid by Toyota over the years, and it says that between 2000, 
and 2009, Toyota paid Exponent about $11 million for consulting 
services and during the period between 2004, and 2009, it was 
$9.1 million, and there is a statement here, ``Exponent 
believes the result of the search provides a reasonable 
estimate of the gross revenues from Toyota,'' but they note 
that if that agreement does not specifically refer to Toyota by 
name, it may not show up in those revenues.
    So it is clear that Toyota in that decade had paid a 
substantial amount of money to Exponent, and my question for 
you is how can you claim that Exponent was retained by Toyota 
to conduct an independent investigation when this agreement we 
have been provided with makes it clear that they were retained 
by your defense law firm, and it was for contested litigation 
which is in no way considered an independent analysis.
    That is how the relationship began. But as this has 
evolved, well, as of this week, before you came here, you 
testified that they were reporting through product liability 
attorneys, and that changed this week.
    Mr. Lentz. Correct. Correct.
    Mr. Braley. And then the other thing I want to point out is 
we also asked questions from Toyota and received responses, and 
I want those put up on the screen, question and request number 
15, it says, ``The overall amount that Exponent has billed for 
work-related to Toyota since exponent was retained by Bowman & 
Brooke on December 7, 2009, the answer the committee received 
was Exponent has billed $3,330,552.36.
    So you indicated in your written statement today that 
Exponent has already completed more than 11,000 hours of 
testing and analysis. That means that at 11,000 hours that they 
are billing about 302 an hour for this, in the incredible 
amount of work that they have done on this project.
    Mr. Lentz. I don't know. I don't know what the specific 
contract is. All I can say I understand the perception that 
this is not a very transparent process.
    Mr. Braley. But you also provided us in your written 
statement today with this letter to Mr. Sobi----
    Mr. Lentz. Yes.
    Mr. Braley [continuing]. Who you have indicated will be 
communicating directly with Mr. St. Angelo----
    Mr. Lentz. Yes.
    Mr. Braley [continuing]. And when Toyota's counsel talked 
to committee staff yesterday, they said that the letter to 
Exponent that you provided with your attachment does not change 
Exponent's contractual relationship with Bowman & Brooke.
    Mr. Lentz. Not yet.
    Mr. Braley. Is it your understanding that it will?
    Mr. Lentz. I do not know that for a fact.
    Mr. Braley. Will you commit to the committee today that if 
it does, you will provide us with any documents that change the 
contractual relationship between Exponent and Bowman & Brooke 
or Toyota and any of its various entities related to the 
project that we have been talking about during these two 
hearings?
    Mr. Lentz. Absolutely.
    Mr. Braley. I see my time has expired. I will yield back.
    Mr. Stupak. Thank you, Mr. Braley.
    We wanted to go another round of questions, but we have got 
four votes on the floor plus a committee markup on the bill, on 
the NHTSA bill that takes place at 2:00, and the members can't 
be at two places, so we are going to have to cut it short.
    Mr. Lentz, before I go, though, I did want to get into 
questions about the polling, but I can do that in writing, and 
I will follow these up, but last time you were here in February 
I asked you about--and a lot of discussion about the event data 
recorders.
    Mr. Lentz. Yes.
    Mr. Stupak. We received no information yet on anything from 
the event data recorder, other than you provided some, but I 
had asked, Mr. Rush has asked, and others had asked 
specifically about the November 27, 2009, accident involving 
the 2010, Camry in Auburn, New York. I asked about December 26, 
2009, accident in South Lake, Texas, involving a 2008, Toyota 
Avalon. I asked about the Jeff Pepsky of Minnesota, 2007, Lexus 
ES350, about their black box recorder.
    I also asked and questioned you on the February 20, 2010, 
Washington Post article on the Camrys in 2005. In fact, Camrys, 
three fatal accidents in the course of the 2005, Camry is not 
subject to any sudden unintended acceleration, even those three 
fatal accidents here did.
    We were looking for the information on the black box 
recorders. I will follow it up in writing, but that and then 
other questions I have.
    Mr. Lentz. I apologize that we haven't submitted that to 
you. I can tell you that the black box recorders, we lived up 
to the commitment that we made that we will--we have 150 of the 
devices, the data retrieval devices in the marketplace. I can 
also tell you that----
    Mr. Stupak. Correct, but we want to know what they say.
    Mr. Lentz. Yes, but I can also tell you that they will be 
made commercially available by probably about September of 
2011, to make it much more readily available for police across 
the United States.
    Mr. Stupak. And consumers, I hope.
    Mr. Lentz. Yes, and consumers will have access.
    Mr. Stupak. Because they will be part of the bill today.
    Mr. Lentz. To their data.
    Mr. Stupak. So--but we will follow those up.
    Mr. Braley, quickly because we are going to run out of 
time.
    Mr. Braley. Yes. Before you close this hearing I would just 
ask that the response from King & Spaulding that we received 
with all of the relevant attachments and the email that we had 
up on the screen dated Wednesday, May 19, with the answers to 
questions number 15 and 16, be included as part of----
    Mr. Stupak. I would have no problem as long as we had some 
redactions on some of the names. That would be the only thing I 
would have to insist upon. Other than that I have no objection.
    Do you have any objection as long as you redact the names?
    Mr. Braley. I just--I have a question for the Chairman why 
we would redact names that have been provided in response to an 
official request.
    Mr. Stupak. Because we have--that has been our policy in 
the past if they are not subject to--if the names of those 
individuals, those engineers by Exponent, their names don't 
need to be in the public record.
    Mr. Braley. Then the only exception I would request then, 
Mr. Chairman, is there are people, Mr. Sobi is listed as the 
very first person in that answer. Since he has been the subject 
of the discussion at the hearing and there is no question based 
on the letter that he--that the----
    Mr. Stupak. Correct.
    Mr. Braley [continuing]. Witness has provided that his name 
be left and not----
    Mr. Stupak. Correct. OK. Without objection. So be it 
included with redactions of the professional engineers who were 
not subject to or signed that letter.
    [The information was unavailable at the time of printing.]
    Mr. Stupak. OK. That concludes all----
    Mr. Burgess. Mr. Chairman, just one observation since 
everyone else has gone over.
    Mr. Stupak. All right.
    Mr. Burgess. We are going to--well, you are going to a 
markup at Commerce, Trade and Consumer Protection. I am no 
longer on that subcommittee, but you are going to mark up 
legislation, and we haven't finished our work here that is 
supposed to inform the legislation that is being marked up this 
afternoon.
    I mean, there are huge discrepancies and huge holes that 
need to be filled with--they need to get this done so----
    Mr. Stupak. The legislation we are marking up does not just 
include the subject of this hearing, Toyota.
    Mr. Burgess. Well, I would----
    Mr. Stupak. There are also others. There have also been 
hearings on the legislation that witnesses have testified. I 
know you are not on the subcommittee but reports come----
    Mr. Burgess. But do we--reclaiming my time, we do this time 
and time again.
    Mr. Stupak. You don't have any time.
    Mr. Burgess. We did it with clean water, we--now we are 
doing it with this bill this afternoon. It just seems like the 
committee should take things in a methodical way and not be 
doing these things in a haphazard arrangement that seems to be 
so prevalent right now in the committee.
    Mr. Stupak. We----
    Mr. Burgess. Thank you for your indulgence. I will yield 
back.
    Mr. Stupak. You will have a chance to voice those 
objections when it comes to the full committee, because as you 
know, when it goes for the subcommittee level, it must come to 
the full committee before we have a markup at full committee 
level. So you will have a chance to participate then.
    Well, that concludes all questioning. I want to thank all 
of our witnesses for coming today and for your testimony. The 
committee rules provide members have 10 days to submit 
additional questions for the record.
    I ask unanimous consent that the contents of the document 
binder be entered in the record provided, that the committee 
staff may redact any information as business proprietary, 
relates to privacy concerns or law enforcement sensitive.
    Without objection, the documents will be entered into the 
record.
    Before I close this hearing, let me acknowledge two key 
staff persons. Anne Tindall of the Democratic staff and Karen 
Christian of the Republican staff. Both these women are 
expecting a child very soon. We appreciate the work they put in 
on this hearing and previous hearings for this committee and 
our subcommittee. We wish them well in the coming days and 
weeks ahead as they transition from work exhaustion to 
childbirth exhaustion.
    That will conclude our hearing. The meeting of this 
subcommittee is adjourned.
    [Whereupon, at 1:45 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6581A.021
    
    [GRAPHIC] [TIFF OMITTED] T6581A.022
    
    [GRAPHIC] [TIFF OMITTED] T6581A.023
    
    [GRAPHIC] [TIFF OMITTED] T6581A.024
    
    [GRAPHIC] [TIFF OMITTED] T6581A.025
    
    [GRAPHIC] [TIFF OMITTED] T6581A.026
    
    [GRAPHIC] [TIFF OMITTED] T6581A.027
    
    [GRAPHIC] [TIFF OMITTED] T6581A.028
    
    [GRAPHIC] [TIFF OMITTED] T6581A.029
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
